<html>
<title> - NEXTGEN: A REVIEW OF PROGRESS, CHALLENGES, AND OPPORTUNITIES FOR IMPROVING AVIATION SAFETY AND EFFICIENCY</title>
<body><pre>[Senate Hearing 113-669]
[From the U.S. Government Publishing Office]






                                                        S. Hrg. 113-669
 
               NEXTGEN: A REVIEW OF PROGRESS, CHALLENGES,
                    AND OPPORTUNITIES FOR IMPROVING
                     AVIATION SAFETY AND EFFICIENCY

=======================================================================

                                HEARING

                               before the

       SUBCOMMITTEE ON AVIATION OPERATIONS, SAFETY, AND SECURITY

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 25, 2014

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
     
                               Transportation
                               
                               
                               
                               
                               
                               
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]









                              U.S. GOVERNMENT PUBLISHING OFFICE
 95-362 PDF                           WASHINGTON : 2015             


_________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office,
      Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001

                               
                               
                               
                               
                               
                               
                               
                               


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION
       
 
                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
BARBARA BOXER, California            JOHN THUNE, South Dakota, Ranking
BILL NELSON, Florida                 ROGER F. WICKER, Mississippi
MARIA CANTWELL, Washington           ROY BLUNT, Missouri
MARK PRYOR, Arkansas                 MARCO RUBIO, Florida
CLAIRE McCASKILL, Missouri           KELLY AYOTTE, New Hampshire
AMY KLOBUCHAR, Minnesota             DEAN HELLER, Nevada
MARK BEGICH, Alaska                  DAN COATS, Indiana
RICHARD BLUMENTHAL, Connecticut      TIM SCOTT, South Carolina
BRIAN SCHATZ, Hawaii                 TED CRUZ, Texas
EDWARD MARKEY, Massachusetts         DEB FISCHER, Nebraska
CORY BOOKER, New Jersey              RON JOHNSON, Wisconsin
JOHN E. WALSH, Montana
                    Ellen L. Doneski, Staff Director
                     John Williams, General Counsel
              David Schwietert, Republican Staff Director
              Nick Rossi, Republican Deputy Staff Director
   Rebecca Seidel, Republican General Counsel and Chief Investigator
                                 ------                                

       SUBCOMMITTEE ON AVIATION OPERATIONS, SAFETY, AND SECURITY

MARIA CANTWELL, Washington,          KELLY AYOTTE, New Hampshire, 
    Chairman                             Ranking Member
BARBARA BOXER, California            ROGER F. WICKER, Mississippi
BILL NELSON, Florida                 ROY BLUNT, Missouri
MARK PRYOR, Arkansas                 MARCO RUBIO, Florida
AMY KLOBUCHAR, Minnesota             DEAN HELLER, Nevada
MARK BEGICH, Alaska                  TIM SCOTT, South Carolina
BRIAN SCHATZ, Hawaii                 TED CRUZ, Texas
CORY BOOKER, New Jersey              DEB FISCHER, Nebraska
JOHN E. WALSH, Montana               RON JOHNSON, Wisconsin






                                (II)








                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 25, 2014....................................     1
Statement of Senator Cantwell....................................     1
Statement of Senator Ayotte......................................     3
Statement of Senator Booker......................................    32
Statement of Senator Begich......................................    34
Statement of Senator Nelson......................................    36

                               Witnesses

Hon. Michael G. Whitaker, Deputy Administrator, Federal Aviation 
  Administration.................................................     4
    Prepared statement...........................................     6
Matthew E. Hampton, Assistant Inspector General for Aviation 
  Audits, Office of Inspector General, U.S. Department of 
  Transportation.................................................     9
    Prepared statement...........................................    11
Paul Rinaldi, President, National Air Traffic Controllers 
  Association....................................................    17
    Prepared statement...........................................    19
Gary Beck, Vice President--Flight Operations, Alaska Airlines....    25
    Prepared statement...........................................    26

                                Appendix

Response to written questions submitted to Hon. Michael G. 
  Whitaker by:
    Hon. John D. Rockefeller IV..................................    43
    Hon. Maria Cantwell..........................................    43
    Hon. Amy Klobuchar...........................................    47
Response to written question submitted to Gary Beck by:
    Hon. Maria Cantwell..........................................    47
    Hon. Amy Klobuchar...........................................    48


                     NEXTGEN: A REVIEW OF PROGRESS,



                   CHALLENGES, AND OPPORTUNITIES FOR



                IMPROVING AVIATION SAFETY AND EFFICIENCY

                              ----------                              


                        WEDNESDAY, JUNE 25, 2014

                               U.S. Senate,
  Subcommittee on Aviation Operations, Safety, and 
                                          Security,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:30 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Maria 
Cantwell, Chairman of the Subcommittee, presiding.

           OPENING STATEMENT OF HON. MARIA CANTWELL, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. The Senate Committee on Commerce, 
Science, and Transportation will come to order. This is an 
Aviation Subcommittee, and we are having a hearing today on 
``NextGen: A Review of the Progress, Challenges, and 
Opportunities for Improving Aviation Safety and Efficiency.''
    I want to thank the witnesses for being here today, the 
Honorable Michael Whitaker, who is Deputy Administrator for the 
FAA. Welcome.
    Mr. Matthew Hampton, Assistant Inspector General for 
Aviation Audits, in the Office of the Inspector General for the 
U.S. Department of Transportation.
    Mr. Paul Rinaldi, President of the National Air Traffic 
Controllers Association. Welcome.
    Mr. Gary Beck, Vice President--Flight Operations, Alaska 
Airlines. I do not know if that means you live in the 
Northwest, but if that is indeed the case, welcome, and thank 
you for being here.
    Senator Booker. It does not matter where he lives, he has 
got a great haircut.
    [Laughter.]
    Senator Cantwell. Just like yours. OK. Today, we are here 
to discuss the Next Generation Air Traffic System, more 
commonly known as ``NextGen,'' and this program has been 
promised as a way to increase safety, improve efficiency, 
reduce fuel costs, by reforming our air traffic control system.
    A fully implemented NextGen system is also critical for 
building capacity in our aviation system to meet the demands of 
a growing middle class around the globe and the increase in air 
transportation.
    There is a lot to do to achieve these goals. Five billion 
has been invested in NextGen thus far, and it has as the I.G. 
Report says produced some milestones being met, but as the 
report shows, there are also issues related to the ASD-B 
program, a cornerstone of the technology, and underlying 
problematic challenges, and an executable plan for coordinating 
many of the multiple programs and the technical issues.
    So, we will look forward to hearing more from the IG 
Report.
    We are expected to continue to invest $1 billion a year in 
NextGen, and there have been some delays in this implementation 
that we need to push beyond. It is unacceptable for us to 
continue to spend resources and not make more progress as it 
relates to the flying public.
    We have asked the private sector, commercial air carriers, 
cargo and general aviation, to make real investments in helping 
us meet the promise of NextGen, but we have little data and 
metrics to assess the value of that investment.
    We had created a NextGen Advisory Committee in the last FAA 
reauthorization bill to help the FAA get back on track. Thanks 
to many people, including Alaska Airlines' CEO, Bill Ayer, who 
have made progress on helping us keep the implementation of key 
priorities.
    But a lot of work still remains. The NextGen Advisory 
Committee has said the FAA should focus on key areas, including 
runway operations, Performance Based Navigation, surface 
operations, and data communications.
    These four priorities represent consensus between the 
industry and the FAA where optimum progress can be made in the 
shortest amount of time.
    I cannot emphasize how important I believe that is. When 
you see the progress that has been made from Greener Skies, you 
certainly think why can we not get this as a model that could 
be replicated more quickly airport to airport or region to 
region, having learned all the pluses--challenges with 
implementation, thereby flattening some of those and making it 
easier for the next airport to implement. So, I certainly hope 
that this is one of the priorities we will move on faster.
    This will deliver maximum return on investment for the 
taxpayers and the airline industry, and improve the service to 
the flying public.
    The FAA has promised a report on the path forward for many 
of the priorities. We look forward to getting that, I believe 
this July, so we will have a chance to ask a little bit about 
that today, on data communications and the improvements that 
are supposed to be made between air traffic controllers and the 
commercial pilots, the Performance Based Navigation system, 
using GPS, the Automatic Dependent Surveillance-Broadcast, ADS-
B, and a variety of other issues about the traveling public and 
their smoother, shorter flights.
    Obviously, we know that NextGen has the promise of an 
estimated 1.6 billion gallons of fuel savings by 2020, and this 
will help airlines invest in newer, more fuel efficient, safer 
planes, which is also good for domestic manufacturing, and good 
for our environment.
    We all understand that investments must be made in 
infrastructure before associated capabilities and benefits are 
realized, and that is why, Deputy Administrator Whitaker, I 
appreciate your leadership and what you have brought to the 
agency to bring focus to this.
    We know there are many challenges you face in implementing 
a whole new system in the existing culture.
    So, we are all here to help focus on these issues today, 
and hope that we can prioritize some of these investments.
    One of the areas I mentioned is the implementation of the 
Greener Skies initiative in Seattle where Alaska Airlines 
partnered with Seattle, Boeing, the FAA, and leveraged Alaska's 
pioneering efforts on NextGen and Performance Based Navigation.
    Today, there are more Performance Based Navigation 
procedures in use than conventional routes, and Alaska's 
private investment in research in this field has benefited 
passengers throughout the nation, and it is critical that we 
continue to fund the research and development that will help 
achieve these technically complex capabilities and long-term 
goals.
    I look forward to hearing from all the witnesses today on 
this important endeavor that we are undertaking. Again, thank 
you all for your contribution, and now I will turn to the 
Ranking Member, Senator Ayotte, for her opening statement.

                STATEMENT OF HON. KELLY AYOTTE, 
                U.S. SENATOR FROM NEW HAMPSHIRE

    Senator Ayotte. Thank you. I want to thank the Chair of the 
Committee for holding this important hearing.
    We can all agree that the Next Generation Air 
Transportation System, or NextGen, has the potential to 
significantly enhance our Nation's antiquated air traffic 
system by making our air traffic management more efficient, 
more environmentally friendly, and most importantly, safer for 
the traveling public.
    There is no doubt that NextGen seeks to reform an 
extraordinarily complex air traffic management system. However, 
as we will discuss today, according to the U.S. Department of 
Transportation Inspector General, the Federal Government has 
already spent between $5 billion to $6 billion to build the 
foundational elements of NextGen, work that has been ongoing 
since 2003.
    While recognizing that some progress has been made, I am 
concerned that we have yet to see many of the tangible results 
from these investments that we are all waiting to see and that 
we all support.
    Specifically, I am concerned that programs critical to the 
foundation of NextGen have experienced cost increases, 
performance shortfalls, and have failed to meet scheduled 
deadlines.
    In addition, while I appreciate that some airlines have 
already invested millions of dollars in equipping their 
aircraft for NextGen, it is concerning that they are still 
waiting to see the benefits of these forward thinking 
investments, and I think some people are sitting on the side 
lines in the airlines industry as well, because those who have 
made investments have not yet seen the return on those 
investments.
    While I look forward to discussing progress today, I also 
want to further identify areas that need improvement, so that 
we can work together toward swift and efficient implementation 
of NextGen.
    I look forward to hearing from our witnesses today about 
how Congress, the FAA, and industry can work together to better 
address these challenges.
    As we develop the next FAA reauthorization bill, it is 
critical that members of this committee, particularly this 
subcommittee, work together along with our House counterparts, 
and all the stakeholders involved with the FAA to get this 
right.
    It is too important for the country that we move forward 
with NextGen implementation as fast as we can, that we really 
get back on track, and that we do all we can with all of the 
great benefits that we will see from updating this system.
    So, I thank the Chair for holding this important hearing, 
and I thank the witnesses for being here.
    Senator Cantwell. Thank you, Senator Ayotte. Now, we will 
go to our witnesses. We will start with you, Mr. Whitaker, and 
just go down the line. You each have five minutes.
    If you have a longer statement, we are happy to submit it 
for the record, and that will give us time to really get into 
the questions. So, thank you and welcome.

 STATEMENT OF HON. MICHAEL G. WHITAKER, DEPUTY ADMINISTRATOR, 
                FEDERAL AVIATION ADMINISTRATION

    Mr. Whitaker. Thank you, Chairwoman Cantwell and Ranking 
Member Ayotte, Senator Booker. I am pleased to have the 
opportunity to be here and highlight the progress the FAA and 
industry are making with NextGen.
    On June 3, my one year anniversary as the agency's Chief 
NextGen Officer, I delivered my first annual report to Congress 
as required by the 2012 Reauthorization Act. The report 
discusses the significant progress we are making with NextGen 
foundational programs and underscores the benefits that NextGen 
is delivering now.
    For example, this year we completed one of the most crucial 
foundational elements of NextGen: the installation of the 
ground infrastructure for Automatic Dependent Surveillance-
Broadcast or ADS-B. This represents a key milestone in 
transitioning from a ground based radar system to satellite 
based GPS technology.
    ADS-B enables us to determine an aircraft's location and 
track with far greater accuracy than radar. In turn, this 
allows us more precise and efficient spacing of aircraft, which 
enables airlines to take advantage of the fuel savings in 
NextGen procedures.
    This technology is also improving our ability to perform 
life saving search and rescue operations. Air traffic 
controllers have better information about an airplane's last 
position, thus helping take the ``search'' out of ``search and 
rescue.''
    We are also close to completing another major foundational 
element of NextGen, the software and hardware upgrades to our 
Nation's high altitude air traffic centers. The ERAM program 
will be complete next spring, allowing us to decommission the 
Legacy system.
    Similar upgrades in our approach centers, the TRACONs, also 
are on track and will be completed in the major TRACONs by 
2016.
    In all, we are on track and nearing completion of the 
foundational phase of NextGen, the technology upgrades that 
will enable future capabilities to more efficiently and safely 
manage existing traffic and incorporate new users into the 
airspace.
    This puts us well on track to having all the ADS-B 
foundational technology completed well before the 2020 mandate 
for industry to equip with ADS-B Out.
    Both the FAA and industry must be held accountable if 
NextGen is to succeed. We are fulfilling our part of the 
bargain. Airlines and general aviation pilots must do their 
part and equip by the deadline to use the system that we have 
built.
    Let me be very clear. The 2020 deadline is not going to 
change. We are in a position to achieve this important 
milestone on time. The cost of equipment has come down 
considerably. There is sufficient maintenance capacity to allow 
all equipage to occur, in fact, waiting to equip might cost 
more if aircraft owners crowd repair stations to get work done 
on the eve of the deadline.
    In addition to the foundational work, we have also made 
significant strives in working with the industry to deliver 
benefits now.
    One of my first actions upon joining the agency was to task 
a NextGen Advisory Committee or NAC, to provide industry 
consensus on capabilities that may be delivered in the next one 
to three years.
    The NAC responded with a list in September, and since then 
we have worked together to hone in on four NextGen areas that 
will be our priority--Performance Based Navigation, surface 
operations, multiple runway operations, and DataComm. Each of 
these areas can bring benefits to users in the near term.
    We are working with industry to craft milestones, agree on 
metrics, and track our progress on these initiatives.
    Much of this work has already been underway. Just last 
week, Secretary Fox and FAA Administrator Huerta announced the 
completion of the Houston Metroplex. The Obama administration 
selected this project as one of 14 high priority infrastructure 
projects, ideal for expedited completion. In 30 months working 
with industry, we were able to transform Houston's airspace, 
thanks to close collaboration with labor, environmental 
streamlining, and concurrent reviews.
    We have flipped the switch on 61 new procedures that take 
advantage of the precision of GPS technology to untangle the 
congested airspace shared by multiple airports. These new 
procedures are estimated to save airlines three million gallons 
of fuel per year while reducing carbon emissions by 31,000 
metric tons. That is the equivalent of removing more than 6,000 
cars from the streets of Houston.
    We plan to replicate or improve upon these benefits at more 
than a dozen other busy metropolitan areas across the country.
    The FAA is focused on delivering benefits to airspace users 
today while also completing the foundational programs of 
NextGen. As these foundational programs are complete over the 
next 24 months, we are also focusing on the years beyond--the 
deployment of surface DataComm through 2018, and full ADS-B 
equipage in 2020.
    We are on track with NextGen, but it is important that we 
continue to work together, FAA, industry, and Congress, to keep 
NextGen funded and moving forward. By working together, we have 
the ability to transform our nation's airspace for the benefit 
of generations to come.
    Thank you for the opportunity to be here and I look forward 
to your questions.
    [The prepared statement of Mr. Whitaker follows:]

 Prepared Statement of Hon. Michael G. Whitaker, Deputy Administrator, 
                    Federal Aviation Administration
    Chairman Cantwell, Ranking Member Ayotte, members of the 
Subcommittee:

    Thank you for the opportunity to appear before you today to discuss 
the Next Generation Air Transportation System (NextGen). Through 
NextGen, the FAA is changing the way the National Airspace System (NAS) 
operates to achieve greater efficiency and predictability in air 
travel. NextGen will improve safety and support environmental 
initiatives such as reducing congestion, noise, emissions and fuel 
consumption through increased efficiency. NextGen will also allow the 
NAS to expand to meet future demand, manage a more complex set of 
users, and support the economic viability of our country's aviation 
system.
    NextGen was a key component of the 2012 FAA Reauthorization. We 
recently released the Chief NextGen Officer's Report to Congress 
detailing the progress we have made in NextGen programs and 
capabilities. Since I became Chief NextGen Officer in June 2013, the 
FAA has made significant progress toward completing the technological 
foundation that allows us to operate the NAS with greater efficiency 
and predictability and reduced environmental impact. We have 
strengthened our partnerships with key stakeholders, coming to an 
agreement on a set of near-term capabilities that both the FAA and 
industry will concentrate on over the next three years. And we have 
concrete evidence that demonstrates how NextGen works.
    We are on the cusp of finishing several key programs that underpin 
NextGen. We have completed installation of the ground infrastructure 
for Automatic Dependent Surveillance-Broadcast (ADS-B), the new 
surveillance system that uses GPS signals to determine an aircraft's 
location. We are on track to have all 20 en route centers operating 
with En Route Automation Modernization (ERAM) by Spring 2015, which 
will replace HOST, the computer system the FAA has been using to 
control traffic in high-altitude airspace since the 1970s. ERAM enables 
many new NextGen capabilities that could not be accommodated by HOST.
    By the end of 2016, we expect to have made substantial progress 
deploying Terminal Automation Modernization and Replacement (TAMR), a 
program that upgrades the automation platform used in FAA facilities 
that control low-altitude traffic approaching and departing from our 
Nation's airports. ERAM and TAMR will be coupled with ADS-B and other 
NextGen programs still in development, such as Data Communications and 
a suite of traffic management and decision support tools, to provide 
new ways to move users safely and efficiently through the NAS.
NextGen Benefits Are Being Delivered Today
    Passengers are already enjoying the benefits of NextGen through 
shorter flights, better on-time performance and fewer missed 
connections. Air carriers are saving precious minutes and fuel and 
reducing aircraft exhaust emissions by taking advantage of more precise 
routing. General aviation pilots and other small aircraft operators are 
enjoying greater access to more airports across the country, 
particularly during poor weather. And air traffic controllers have 
access to new tools to help them make the critical decisions necessary 
to keep the world's busiest airspace system working as safely and 
efficiently as possible.
ADS-B
    Automatic Dependent Surveillance-Broadcast (ADS-B) is a key 
component of NextGen, which will move air traffic control (ATC) from a 
radar-based system to a more precise satellite-derived aircraft 
location system. ADS-B equipment combines an aircraft's positioning 
source, aircraft avionics, and a ground infrastructure to create an 
accurate surveillance interface between aircraft and ATC. ADS-B 
provides air traffic controllers with more accurate information to help 
keep aircraft safely separated in the sky and on runways.
    ADS-B consists of two different services: ADS-B Out and ADS-B In. 
ADS-B Out periodically broadcasts information about each aircraft 
operating within the NAS, such as identification, current position, 
altitude, and velocity, through an onboard transmitter. With ADS-B, 
controllers get an update of aircraft position almost continuously, 
compared to every five seconds or longer with radar. The real-time 
position information provided to controllers through ADS-B Out is, in 
most cases, more accurate than the information available with current 
radar-based systems. With more accurate information, ATC will be able 
to position and separate aircraft with improved precision and timing, 
which leads to enhanced safety, greater efficiency, and ultimately 
results in a smoother flow of air traffic.
    All users operating in designated airspace must be equipped with 
ADS-B Out avionics by January 1, 2020. By that date, all aircraft 
flying in designated airspace must be equipped with avionics that meet 
performance requirements. The designated airspace includes Class A, B, 
and C airspace, as well as Class E airspace areas at or above 10,000 
feet mean sea level (MSL) over the 48 contiguous United States and the 
District of Columbia, excluding the airspace at and below 2,500 feet 
above the surface. This airspace is more complex with relatively 
diverse users. The rule also requires that aircraft operating in the 
airspace within 30 nautical miles (NM) of the Nation's busiest airports 
be equipped with ADS-B Out capabilities. This will enhance safety, 
efficiency, and performance around those airports.
    Since ADS-B relies on information transmitted from ADS-B Out 
equipped aircraft operating in designated airspace, all users operating 
in that airspace must be equipped in order for ATC to rely on it. That 
is why the FAA has set a firm date by which all aircraft operating in 
designated airspace must be equipped. We made a significant investment 
in ground infrastructure, and now that installation is complete and we 
are finalizing ADS-B connections to the air traffic control automation 
platforms, industry equipage is necessary for the full benefits of ADS-
B technology to be achieved.
    While only ADS-B Out is required under the rule, many users are 
seeing the benefits of universal equipage with ADS-B In and ADS-B Out. 
ADS-B In technology allows pilots to see what air traffic controllers 
see: displays showing the location of aircraft in the sky around them. 
This creates an environment of shared situation awareness that allows 
for greater safety and efficiency. Traffic and weather information is 
now being sent directly to the cockpit of properly equipped aircraft. 
This information alerts them to in-flight hazards and helps prevent 
accidents. The three types of ADS-B broadcast services now deployed 
are:

  <bullet> Traffic Information Service-Broadcast (TIS-B): This air 
        traffic advisory service provides the altitude, ground track, 
        speed and distance of aircraft flying in radar contact with 
        controllers and within a 15-nautical-mile (nm) radius, up to 
        3,500 feet above or below the receiving aircraft's position. An 
        aircraft equipped with ADS-B In can also receive position data 
        directly from other aircraft broadcasting on the same ADS-B Out 
        frequency. In addition, TIS-B enables pilots to see aircraft 
        equipped with transponders flying nearby even if those aircraft 
        are not equipped with ADS-B Out.

  <bullet> Automatic Dependent Surveillance-Rebroadcast (ADS-R): ADS-R 
        takes position information received on the ground from 
        universal access transceiver (UAT)-equipped aircraft and 
        rebroadcasts it on the 1090 MHz frequency. Likewise, ADS-R 
        rebroadcasts 1090 MHz data to UAT users. In concert with TIS-B, 
        ADS-R provides all ADS-B In-equipped aircraft with a 
        comprehensive airspace and airport surface traffic picture. 
        ADS-R delivers traffic data within a 15-nm radius 5,000 feet 
        above or below relative to the receiving aircraft's position.

  <bullet> Flight Information Service-Broadcast (FIS-B): This service 
        broadcasts graphical weather to the cockpit based on what 
        ground-based weather radar is detecting. In addition, FIS-B 
        broadcasts text-based advisories including Notice to Airmen 
        messages and reports on everything from significant weather to 
        thunderstorm activity. UAT-equipped general aviation aircraft 
        can receive this information at altitudes up to 24,000 feet.

    The costs of TIS-B and FIS-B services are absorbed by the FAA, so 
NAS users, unlike in the airspace controlled by other Air Navigation 
Service Providers around the world, do not pay any subscription or 
usage fees for traffic, weather, or aeronautical information services.
    We are continuing to develop and deploy ADS-B capabilities that 
will benefit the aviation community and, by extension, the public in 
oceanic, en route and terminal airspace. In 2015, the FAA will 
implement ADS-B-enabled In-Trail Procedures in oceanic airspace that 
will help airlines save fuel and reduce separation distances. ADS-B is 
already being used in the en route environment in Houston and Alaska. 
The last en route site will achieve ADS-B IOC by September 2015. 
Ground-based Interval Management-Spacing capitalizes on ADS-B to 
streamline traffic flows into terminal airspace while Flight Interval 
Management-Spacing uses ADS-B to enable more precise spacing between 
aircraft.
Performance Based Navigation
    Performance Based Navigation (PBN) is a blanket term for more 
precise GPS-based navigation methods that allow optimal routing in all 
phases of flight. The FAA has been working with stakeholders for many 
years on PBN implementation, and today there are more PBN procedures 
and routes than there are conventional ones. The agency is now 
employing a more systematic and collaborative approach to PBN 
deployment through our Metroplex initiative. A metroplex is a 
geographic area with several airports and high volume air traffic that 
interact in the same airspace. The FAA is actively working to improve 
how air traffic flies into, out of and through 13 targeted metroplexes 
rather than dealing with airports one at a time. Lessons learned from 
this approach are now being applied to all PBN projects across the 
National Airspace System (NAS).
    We are seeing concrete benefits through this approach. In the 
Denver PBN project, the FAA worked with aircraft operators and nine 
area airports to create one of the most comprehensive operational 
networks of NextGen satellite-based arrivals and departures in the 
Nation. This network enables more flexibility and better access to the 
airports, which the FAA estimates will save operators approximately 3.2 
million gallons of fuel. Overall, approximately 80 percent of all 
aircraft that fly in and out of Denver International are equipped to 
take advantage of the new procedures, which includes 51 satellite-based 
procedures designed to provide more direct routes, de-conflict the 
airspace, save fuel and reduce emissions. The project introduced 21 
arrivals procedures with optimized profile descents, which allow 
aircraft to reduce thrust and glide down to the runway using less fuel 
and creating less noise, and two GPS approaches. Twelve additional 
sophisticated approach procedures, known as Required Navigation 
Performance Authorization Required (RNP AR), went into operations in 
late June 2013. These RNP AR procedures provide a more stable but 
curved approach, equaling a shorter flying distance. Flying these 
approaches requires specific aircraft instruments that direct the 
aircraft in a very narrow and precise corridor of airspace. The FAA has 
seen an approximate 35 percent decrease in the number of go-arounds 
caused by aircraft coming in too high or too fast. Aircraft on the new 
arrival procedures are more stabilized on their final approach as they 
usually arrive on a more predictable course and speed. That is only one 
example of success using a collaborative and systematic approach to 
delivering PBN benefits.
    We recently completed the Houston Metroplex project, which includes 
strategies to streamline the airspace and reduce complexity for air 
traffic controllers and flight crews. As part of the program, the FAA 
developed 61 new procedures and amended or canceled over 40 existing 
procedures to take advantage of the precision of GPS technology. These 
improvements will reduce flight miles, save fuel, and reduce carbon 
emissions.
    In addition to the Metroplex and the large-scale projects, the FAA 
continues to implement PBN at other airports across the country, 
including Wide Area Augmentation System Localizer Performance with 
Vertical guidance procedures that increase access to airports in lower 
visibility conditions and are especially helpful to general aviation 
pilots.
System Wide Information Management
    System Wide Information Management (SWIM) is the digital data 
delivery backbone of NextGen, ensuring the right people have the right 
information at the right time. Since 2010, NAS users--particularly 
airline operations centers--have been accessing weather and other 
flight planning information via SWIM, enabling airline dispatchers and 
traffic managers to collaborate on the routing and rerouting of traffic 
based on real-time information. Users benefit by having access to a 
single, comprehensive data feed that contains management initiatives, 
airport runway configurations and which airports are in deicing.
    In August 2013, Miami Terminal Radar Approach Control (TRACON) 
became the first facility to begin distributing data from the towers 
included in its coverage area to an airline via the SWIM Terminal Data 
Distribution System (STDDS). STDDS takes raw surface data and converts 
it into easily accessible information. The system sends surface 
information from airport towers to the corresponding TRACON, which 
makes the information available via SWIM messaging services. Airlines 
and airports can use this information to streamline surface operations 
and increase efficiency. Ultimately, 136 airports will provide surface 
information via STDDS at 39 TRACONs to users via SWIM services. The FAA 
is planning to unveil several new SWIM capabilities next year, 
including Flow Information Publication, which provides subscribers with 
access to traffic flow information.
DataComm
    Another exciting capability underway is Data Communications (Data 
Comm). Data Comm allows us to communicate through written instructions 
to pilots, which reduces the possibility of error with radio 
communications. More importantly, Data Comm allows us to communicate 
highly complex and lengthy clearances, which are currently conveyed 
over the radio with read-backs between controllers and pilots to verify 
accuracy, by automatically uploading the information digitally into the 
aircraft's flight management system. This will ultimately save 
operators time and money, and will improve the flexibility and 
efficiency of our operations. The FAA has awarded the Data Comm 
Integrated Services contract, which will provide for data 
communications between airport towers and appropriately equipped 
aircraft in 2016. Operational Data Comm trials for departure clearances 
are underway in Memphis and Newark.
Reporting NextGen Progress and The Future of NextGen
    We have made consistent progress in delivering NextGen in key 
areas, first having laid the foundation with ADS-B, ERAM, and TAMR, and 
we will be deploying new capabilities through 2020. We will continue to 
work closely with stakeholders and industry to ensure that that we are 
delivering the operational benefits and taking their input into account 
as we set NextGen priorities. We have expanded our public reporting of 
NextGen performance through success stories and performance snapshots 
on our website. The FAA publishes NextGen-specific metrics at the local 
level in order to isolate and identify NextGen improvements at site-
specific locations. Core airports, key city pairs, distance/time/fuel 
reduction, runway safety, the implementation and use of NextGen 
technology and procedures will continue to be important to 
understanding the value and benefits of modernization. Taken together, 
these metrics reveal the nationwide impact of NextGen development, 
which is already showing benefits.
    Next year will be pivotal for the next stage of NextGen, as we make 
investment decisions, which are supported in our FY 2015 Budget and 
out-year planning documents. We look forward to working with you on 
NextGen planning and the upcoming Reauthorization.
    Ms. Chairman, this concludes my prepared statement. I would be 
pleased to answer any questions you may have.

    Senator Cantwell. Thank you very much.
    Mr. Hampton?

                STATEMENT OF MATTHEW E. HAMPTON,

        ASSISTANT INSPECTOR GENERAL FOR AVIATION AUDITS,

                  OFFICE OF INSPECTOR GENERAL,

               U.S. DEPARTMENT OF TRANSPORTATION

    Mr. Hampton. Chairwoman Cantwell, Ranking Member Ayotte, 
and members of the Subcommittee, thank you for inviting me to 
testify today on the FAA's NextGen program.
    As you know, FAA has faced considerable challenges with 
NextGen in this very complex effort. We believe FAA is now at 
an inflection point and must shift from planning to full 
implementation and focus on delivering benefits at specific 
locations.
    My testimony today will focus on FAA's progress in three 
key areas. First, implementing NextGen related provisions of 
the FAA Reform Act. Two, responding to NextGen priorities 
recommended by the NextGen Advisory Committee, also known as 
the ``NAC,'' and three, minimizing risk with implementing 
critical automation systems.
    Without question, FAA has made progress by implementing 
more than half of the Act's 24 NextGen provisions. For example, 
last year FAA appointed a much needed Chief NextGen Officer, 
Mr. Whitaker here, to oversee the agency's NextGen efforts and 
coordinating budgets and plans across the agency.
    However, FAA has yet to meet key provisions aimed 
specifically at accelerating NextGen. For example, FAA is not 
yet in position to mandate that airspace users equipped with 
ADS-B In, a system that will display more precise satellite 
information to pilots in the cockpit. ADS-B In is considered a 
significantly beneficial game changer for unlocking congested 
airports, but it is uncertain when this capability can be 
implemented and at what cost.
    FAA's inability to meet these provisions and deliver 
NextGen capabilities are due to a number of underlying 
challenges. These include a lack of an executable plan, 
evolving requirements, and unresolved complex technical and 
operational issues.
    We believe some of FAA's difficulties in implementing 
NextGen can be addressed by responding to the recommendations 
that the NAC made last September. Focusing on NextGen 
investment priorities is a long overdue and much needed step, 
and a theme of our work over the last two years.
    FAA is working with industry to develop milestones and 
implementing the prioritized capabilities, but significant 
challenges remain.
    For example, as we reported last week, FAA has approved the 
use of some Performance Based Navigation initiatives, known as 
``PBN.'' These procedures can provide airspace users with 
significant benefits, such as more streamlined flight paths and 
greater fuel efficiency. However, at the 14 large airports 
where FAA has implemented advanced procedures, those with 
curved and segment approaches to runways, only about 2 percent 
of the eligible flights actually use them. This is in part 
because FAA lacks an updated policy and procedures for 
controllers to handle traffic using both PBN and conventional 
means.
    FAA's near and mid-term goals for NextGen also depend on 
successfully deploying new automation systems that controllers 
use to manage air traffic. Despite some progress, FAA continues 
to face technical, cost and schedule risks with two programs 
that are needed to modernize both the en route and terminal 
environment.
    For example, FAA is now using the ERAM system, the En Route 
Automation System, either full time or part time at 18 of 20 
sites that manage high altitude traffic. FAA plans to complete 
this $2.5 billion program some time in 2015.
    However, two recent major system outages at Los Angeles and 
Miami, which caused delays and cancellations of hundreds of 
flights, raised questions about the vulnerability and stability 
of the system that require urgent management attention.
    Also, we are concerned about FAA's $500 million effort to 
modernize controller displays and computers that controllers 
use to manage airport arrivals and departures at 11 large 
airports, including seven of the most active facilities in the 
nation, including Atlanta and Dallas-Ft. Worth.
    The current cost and schedule parameters are not reliable, 
and additional funds will be needed to complete this effort.
    Going forward, FAA will need to provide a clear 
understanding of how agency priorities are linked to the 
budget, and develop a transparent execution plan for moving 
forward with the investment priorities, sustained leadership 
with clear lines of accountability and authority will be key to 
achieving progress.
    As the Committee begins deliberating FAA reauthorization, 
FAA will need to provide a clear understanding of how much 
funding is needed for NextGen, how much money is needed to 
sustain the existing NAS, and when that funding profile is 
needed.
    Chairwoman Cantwell, this concludes my prepared statement. 
I would be happy to answer any questions you or Ranking Member 
Ayotte or other members of the Subcommittee may have.
    [The prepared statement of Mr. Hampton follows:]

 Prepared Statement of Matthew E. Hampton, Assistant Inspector General 
 for Aviation Audits, Office of Inspector General, U.S. Department of 
                             Transportation
    Chairwoman Cantwell and Members of the Subcommittee:

    Thank you for inviting me here today to testify on the Federal 
Aviation Administration's (FAA) progress and challenges in developing 
the Next Generation Air Transportation System (NextGen)--a 
multibillion-dollar transportation infrastructure project aimed at 
modernizing our Nation's aging air traffic system. Since the effort 
began almost a decade ago, we have reported on longstanding challenges 
and barriers that have limited FAA's progress in delivering NextGen 
capabilities, such as the Agency's inability to set realistic plans, 
budgets, and expectations, and clearly identify benefits for 
stakeholders.
    The FAA Modernization and Reform Act of 2012 (the act) included 24 
provisions intended to help FAA better manage NextGen. In addition, in 
September 2013, the NextGen Advisory Committee (NAC)--a joint 
Government-industry committee--delivered a report at FAA's request with 
recommendations for prioritizing NextGen activities.
    My testimony today will focus on FAA's progress in (1) implementing 
NextGen-related provisions of the act, (2) responding to NextGen 
priorities recommended by the NAC, and (3) minimizing risks in 
implementing critical automation systems.
In Summary
    FAA has implemented or is on target to implement more than half of 
the act's 24 NextGen-related provisions, including appointing a Chief 
NextGen Officer. However, FAA has yet to meet provisions intended to 
accelerate the development of critical NextGen technologies, including 
a key element of the Automatic Dependent Surveillance Broadcast (ADS-B) 
program--a cornerstone technology for FAA's goals to transform air 
traffic management. FAA's inability to meet these provisions and 
deliver NextGen capabilities is due to underlying programmatic 
challenges, such as the lack of an executable plan for coordinating 
among multiple programs, unresolved complex technical and operational 
issues, and ineffective collaboration with industry. FAA is also in the 
early stages of responding to the NAC's recommended investment 
priorities for advancing NextGen, including establishing performance-
based navigation (PBN). Consistent with our work, the NAC confirmed the 
importance of PBN, which can provide significant near-term benefits to 
airspace users. However, obstacles such as a lack of updated controller 
policies and procedures make it uncertain when users can expect these 
benefits. Finally, FAA continues to face technical, cost, and schedule 
risks with its efforts to modernize or replace air traffic control 
automation systems that are fundamental to achieving NextGen benefits.
More Than Half of the Act's NextGen Modernization Provisions Have Been 
        Implemented
    As we testified in February 2014,\1\ FAA has made progress 
implementing the act's NextGen provisions. As of June 2014, FAA has 
implemented or is on target to implement 16 of 24 NextGen-related 
provisions--including 3 provisions intended to advance new air traffic 
procedures and technologies and increase accountability. Specifically:
---------------------------------------------------------------------------
    \1\ FAA's Implementation of the FAA Modernization and Reform Act of 
2012 Remains Incomplete (OIG Testimony No. CC-2014-010), February 5, 
2014. OIG reports and testimonies are available on our website at 
http://www.oig.dot.gov/.

  <bullet> In May 2012, FAA established a program that uses third 
        parties to develop and test advanced navigation procedures at 
---------------------------------------------------------------------------
        five mid-sized airports.

  <bullet> In October 2012, the Agency completed a multi-agency NextGen 
        Integrated Work Plan that defines the responsibilities of 
        partner agencies--such as the Department of Defense and the 
        National Aeronautics and Space Administration--for conducting 
        NextGen-related research.

  <bullet> In June 2013, FAA appointed its Deputy Administrator as the 
        Chief NextGen Officer. The Deputy Administrator will oversee 
        FAA's NextGen modernization efforts, including coordinating 
        NextGen budgetary and planning activities across the Agency's 
        lines of business and with partner agencies.\2\
---------------------------------------------------------------------------
    \2\ Recognizing the need to better position the Agency to execute 
NextGen, FAA announced a major reorganization in 2011. Specifically, 
FAA appointed an Assistant Administrator for NextGen, who reports 
directly to the FAA Deputy Administrator, and established a new Program 
Management Office.

    Despite this progress, FAA and the Department have not implemented 
key provisions that are intended to accelerate the development of 
NextGen technologies and achieve the full range of NextGen benefits. 
Most notably, FAA has not carried out important provisions related to 
accelerating ADS-B--the foundation for shifting from today's ground-
based radar to NextGen's satellite-based systems. Although FAA has 
mandated that all airspace users purchase and install ADS-B Out--
onboard avionics for broadcasting flight information to controllers and 
FAA ground systems--it has not issued a mandate for ADS-B In,\3\ which 
enables the display of the broadcast information in the cockpit. 
Moreover, the Department has not established a public-private incentive 
program to encourage users to install NextGen avionics equipment on 
aircraft.
---------------------------------------------------------------------------
    \3\ ADS-B In technology provides pilots with information 
transmitted from ADS-B ground stations as well as other aircraft. If an 
operator chooses to equip an aircraft with ADS-B In avionics, a 
compatible display is needed to view the information.
---------------------------------------------------------------------------
    The Act directed FAA to begin a rulemaking process for ADS-B In, 
with the goal of mandating the new technology by 2020 for aircraft 
operating in capacity-constrained airspace. However, technical 
requirements for ADS-B In continue to evolve, raising questions about 
whether the technology will be available by 2020. A report \4\ by the 
ADS-B In Aviation Rulemaking Committee cautioned that the air-to-air 
\5\ applications for ADS-B In were not mature and that the costs and 
benefits were uncertain. The report also stated that FAA lacks well-
defined policy, equipment standards, certification and operational 
approval guidance, procedures, and ground automation--all prerequisites 
for a successful rulemaking effort. As a result, it is uncertain when 
FAA will be in position to mandate ADS-B In and enhance airport 
capacity.
---------------------------------------------------------------------------
    \4\ ``A Report from the ADS-B In Aviation Rulemaking Committee to 
the FAA,'' September 30, 2011.
    \5\ Air-to-air as it relates to ADS-B refers to communication of 
flight information between two or more ADS-B In-equipped aircraft to 
improve situational awareness while in flight.
---------------------------------------------------------------------------
    While FAA explores options for NextGen rulemaking initiatives, the 
Agency has taken some near-term actions to advance ADS-B. FAA is 
providing funding for airlines to purchase ADS-B equipment, and has 
entered into partnerships with several U.S. airlines to develop and 
demonstrate ADS-B In applications and procedures. For example, U.S. 
Airways plans to install ADS-B systems in 20 Airbus A330 aircraft to 
assess the use of cockpit displays in maintaining proper spacing 
between aircraft on arrivals. FAA expects some elements of the 
demonstrations to be completed in 2017.
    As we reported in February 2014,\6\ FAA's failure to meet 
congressional and industry expectations for NextGen is largely due to a 
number of barriers, such as the lack of an executable plan for 
coordinating among multiple programs, unresolved complex technical and 
operational issues, and ineffective collaboration with industry. FAA's 
NextGen plans--which initially estimated completion by 2025 at a cost 
of $40 billion--lack sound strategies for implementing a system that 
could handle three times more traffic while reducing FAA's operating 
costs. Moreover, FAA's organizational culture--which is highly 
operational, tactical, and safety-oriented--has been slow to embrace 
NextGen's transformational vision. Gaps in leadership have further 
undermined the Agency's efforts to advance NextGen. These weaknesses 
have contributed to stakeholders' skepticism about NextGen's 
feasibility and airspace users' reluctance to invest in costly 
equipment.
---------------------------------------------------------------------------
    \6\ Addressing Underlying Causes for NextGen Delays Will Require 
Sustained FAA Leadership and Action (OIG Report No. AV-2014-031), 
February 25, 2014.
---------------------------------------------------------------------------
    The extent to which FAA realigns and consolidates the Nation's air 
traffic control facilities will be another important component of the 
Agency's NextGen efforts. In compliance with the act, in December 2013, 
FAA provided Congress with a plan for consolidating and realigning its 
air traffic facilities. The plan, developed collaboratively with the 
National Air Traffic Controller Association and Professional Aviation 
Safety Specialists, institutes a new process for evaluating and 
recommending realignments of its terminal facilities. However, the plan 
is less comprehensive than the Agency's previous plans that we reviewed 
in 2012,\7\ as it does not include a process for realigning and 
consolidating facilities that manage high-altitude traffic.\8\ 
Regardless, as we recommended in 2012, it will be important for the 
Agency going forward to establish sound metrics to determine whether 
facility realignments and consolidations will result in measurable cost 
savings, operational efficiencies, and productivity enhancements.
---------------------------------------------------------------------------
    \7\ The Success of FAA's Long-Term Plan for Air Traffic Facility 
Realignments and Consolidations Depends on Addressing Key Technical, 
Financial, and Workforce Challenges (OIG Report No. AV-2012-151), July 
17, 2012.
    \8\ En route centers guide airplanes flying at high altitudes 
through large sections of airspace.
---------------------------------------------------------------------------
FAA Is Working With Industry To Implement High-Priority NAC 
        Recommendations But Challenges Remain
    The success of FAA's efforts to implement NextGen depends on the 
Agency's ability to set priorities, deliver benefits, and maintain 
stakeholder support. To address some of these challenges, FAA is 
working with industry to implement the prioritized NextGen capabilities 
recommended by the NAC, which include performance-based navigation 
(PBN) \9\ due to its great potential for providing near-term benefits 
to airspace users. Although FAA has important PBN efforts under way, 
the Agency faces obstacles that make it uncertain when airspace users 
can expect widespread benefits.
---------------------------------------------------------------------------
    \9\ PBN is a blanket term for more precise GPS-based navigation 
methods that allow optimal routing in all phases of flight.
---------------------------------------------------------------------------
FAA Is Working With Industry To Develop a Plan With Milestones for 
        Implementing Prioritized NextGen Capabilities
    In July 2013, FAA requested that the NAC \10\ review the Agency's 
NextGen implementation plans and recommend investment priorities, 
citing uncertainty around funding for NextGen projects. The NAC 
delivered its report in September 2013 and identified industry's top 
NextGen priorities based on planned benefits and implementation 
readiness.
---------------------------------------------------------------------------
    \10\ The NAC is a Federal advisory committee that develops 
recommendations for NextGen portfolios with an emphasis on the midterm 
(through 2018). The NAC includes representation from affected user 
groups, including operators, manufacturers, air traffic management, 
aviation safety, airports, and environmental experts.
---------------------------------------------------------------------------
    Consistent with our work, the NAC ranked PBN as the top activity 
that FAA should continue regardless of its budget situation. 
Introducing new PBN procedures, such as Area Navigation (RNAV) and 
Required Navigation Performance (RNP),\11\ is critical to achieving 
near-term NextGen benefits, including more direct flight paths, 
improved on-time aircraft arrival rates, greater fuel savings, and 
reduced aircraft noise. Other activities that top the NAC's list 
include unlocking closely spaced parallel runway operations, enhancing 
airport surface operations through data sharing, and developing 
capabilities for merging and spacing aircraft to increase PBN use. 
These priorities are in line with prior NAC recommendations and a 
Government-industry task force.\12\
---------------------------------------------------------------------------
    \11\ RNAV is a method of navigation in which aircraft use avionics, 
such as Global Positioning Systems, to fly any desired flight path 
without the limitations imposed by ground-based navigation systems. RNP 
is a form of RNAV that adds on-board monitoring and alerting 
capabilities for pilots, thereby allowing aircraft to fly more precise 
flight paths.
    \12\ In 2009, an FAA-commissioned RTCA task force made 32 
recommendations to advance NextGen and stated that focusing on 
delivering near-term operational benefits, rather than major 
infrastructure programs, would help gain industry confidence in FAA's 
plans and encourage users to invest in NextGen. RTCA, Inc. is a 
private, not-for-profit corporation that functions as a Federal 
advisory committee.
---------------------------------------------------------------------------
    FAA is working jointly with industry to develop milestones for 
implementing the prioritized capabilities, which require operators to 
make changes to their aircraft and flight operations centers, as well 
as provide additional pilot training. Specifically, FAA and the NAC 
have established ``integrated'' work groups to identify specific 
locations for delivery, timelines for implementation, metrics for 
measuring benefits, and cost estimates for each of the capabilities. 
The work groups have been meeting since April 2014 and are working 
toward an interim report in July 2014, followed by a master 
implementation plan in October 2014 that will include commitments from 
both FAA and industry for the next 1 to 3 years.
    However, reaching these commitments may prove difficult as airspace 
users focus on ``capabilities,'' while FAA focuses on programs and 
infrastructure. Airspace users also want near-term operational benefits 
but FAA's delays in defining NextGen benefits have deepened industry's 
reluctance to invest. Moreover, FAA has not always provided a clear 
understanding of how it will manage and execute implementation and what 
it will take to deliver these efforts--particularly in managing complex 
interdependencies among programs, such as PBN and controller automation 
systems, to minimize risk.
    According to FAA officials, the Agency does not plan to adjust its 
budgets since the current capital funding level will accommodate these 
investment priorities without trade-offs at this time. We will continue 
to monitor FAA's efforts with setting NextGen priorities in our ongoing 
review of the Agency's progress in responding to the NAC's 
recommendations.\13\
---------------------------------------------------------------------------
    \13\ OIG Audit Announcement, ``Review of FAA's Response to the 
NextGen Advisory Committee's (NAC) Recommendations on NextGen 
Priorities,'' February 27, 2014.
---------------------------------------------------------------------------
FAA Faces Obstacles in Implementing New PBN Flight Procedures To 
        Optimize Near-Term Benefits
    As it works to develop milestones for implementing the NAC's 
priority capabilities, particularly PBN, FAA will need to continue its 
efforts to implement recommendations we made to address barriers 
identified by our office, FAA, and the NAC. Although FAA has introduced 
more than 100 RNP procedures at large airports, preliminary data \14\ 
indicate that RNP use is low, particularly at busy airports, such as 
those in the New York City area. Notably, at the 14 large airports \15\ 
where FAA has implemented advanced PBN procedures with curved 
approaches to runways,\16\ only about 2 percent of eligible airline 
flights \17\ actually used them.
---------------------------------------------------------------------------
    \14\ FAA tasked MITRE to obtain and analyze data to measure the use 
of PBN procedures and quantify their benefits. MITRE Corporation 
manages a research and development center for FAA, the Center for 
Advanced Aviation System Development.
    \15\ The 14 large airports are Baltimore-Washington International, 
Chicago Midway, Denver International, Fort Lauderdale International, 
Hartsfield-Jackson Atlanta International, JFK International and 
LaGuardia in New York, Memphis, Minneapolis/St. Paul International, 
Newark Liberty, San Francisco, Seattle-Tacoma, and Dulles and Reagan 
National in Washington, D.C.
    \16\ Curved approaches to runways improve the use of airspace by 
allowing aircraft to avoid critical areas of terrain or conflicting 
airspace, thus increasing capacity.
    \17\ An eligible flight is one in which (1) the aircraft was 
authorized to fly the RNP procedure and (2) the flight was in a 
position to join the procedure.
---------------------------------------------------------------------------
    Several obstacles have undermined FAA's efforts to increase use of 
PBN procedures. For example, according to a March 2012 FAA internal 
study and a June 2013 NAC report,\18\ controllers at busy metroplex 
locations lack automated tools to manage mixed operations--that is, 
merging aircraft using straight-in approaches with those on curved 
paths. Other reported obstacles include the lack of clearly defined 
operational goals for designing PBN procedures, outdated controller 
procedures, and the lack of standard training for pilots and 
controllers. In 2012, FAA tasked a team with developing an action plan 
to address these obstacles, but it remains unclear as to when they will 
issue a report on the team's plan.
---------------------------------------------------------------------------
    \18\ NextGen Advisory Committee in Response to Tasking from the 
Federal Aviation Administration, ``Recommendation for Increased 
Utilization of Performance Based Navigation (PBN) in the National 
Airspace System (NAS),'' June 2013.
---------------------------------------------------------------------------
    Further, it is uncertain when airspace users can expect widespread 
benefits. In 2010, FAA launched its metroplex initiative--a 7-year 
effort to improve the flow of traffic and efficiency at congested 
airports in 13 major metropolitan areas.\19\ While FAA is in the study 
or design and implementation phase at 9 of 13 metroplex locations, it 
has only recently implemented new PBN procedures for one location--
Houston, TX. According to FAA, airline procedure design and other 
issues have caused delays at other metroplex sites ranging from 2 
months to over 1 year.
---------------------------------------------------------------------------
    \19\ The 13 metroplex locations are: Atlanta, Boston, Charlotte, 
Chicago, Houston, Memphis, Northern California, North Texas, Phoenix, 
Southern California, Washington, D.C., Cleveland/Detroit, and South/
Central Florida.
---------------------------------------------------------------------------
    According to FAA, the launch of new procedures at Houston in May 
2014 was a success; however, the Agency will not know the extent of 
benefits realized until it completes its 6-month post-implementation 
assessment. As we reported in August 2012,\20\ industry representatives 
expressed concerns that FAA's metroplex initiative will not maximize 
benefits because the Agency has not integrated efforts from other 
related initiatives, such as better managing airport taxiway, gate, and 
parking area operations. They also stated concerns that FAA has not 
provided enough advanced PBN procedures--specifically, those that 
regularly allow for more precise and curved approaches.
---------------------------------------------------------------------------
    \20\ Challenges With Implementing Near-Term NextGen Capabilities at 
Congested Airports Could Delay Benefits (OIG Report No. AV-2012-167), 
August 1, 2012.
---------------------------------------------------------------------------
    As we reported last week,\21\ efforts to introduce more advanced 
routes have been impeded by the lengthy development and approval 
process for new PBN procedures. In September 2010, FAA reported 
numerous problems with the process, such as the lack of an expedited 
method for approving procedures that require only minor revisions, 
inaccurate interpretations of environmental policies and guidance, and 
data inconsistencies. To address these problems, FAA made 21 
recommendations for streamlining the process for deploying new 
procedures in an internal review--the NAV Lean project.\22\ In June 
2011, FAA issued its plan for executing the 21 recommendations and to 
date has implemented 9. However, FAA does not expect to complete the 
entire NAV Lean initiative until September 2015. Ultimately, industry 
will not get the full benefits of NAV Lean--to decrease the time it 
takes to implement new procedures by more than 40 percent--until all 
recommendations are implemented.
---------------------------------------------------------------------------
    \21\ FAA Faces Significant Obstacles in Advancing the 
Implementation and Use of Performance-Based Navigation Procedures (OIG 
Report No. AV-2014-057), June 17, 2014.
    \22\ NAV Lean was a cross-agency project to streamline policies and 
processes used to implement instrument flight procedures in response to 
a 2009 joint FAA-industry task force report recommendation. FAA used 
the ``Lean Management Process'' to identify areas of waste.
---------------------------------------------------------------------------
    We made three recommendations to help mitigate barriers to PBN 
implementation and expedite the development of new procedures, 
including completing an action plan, establishing firm requirements and 
schedules, and measuring benefits regularly.
Significant Risks Remain In Implementing Critical NextGen Automation 
        Systems
    FAA's goals for NextGen in the near-and mid-term also depend on the 
success of its ongoing efforts to deploy new automation systems that 
controllers use to manage air traffic. However, despite recent 
progress, FAA continues to face technical, cost, and schedule risks 
with both its En Route Automation Modernization (ERAM) program--an over 
$2.5 billion system for processing en route flight data--and the 
Terminal Automation Modernization/Replacement (TAMR) program--FAA's 
effort to modernize terminal air traffic control facilities.
FAA Made Progress With ERAM But Recent Outages Have Exposed 
        Vulnerabilities
    FAA's long-term NextGen goals, such as increasing airspace capacity 
and reducing flight delays, depend on fully implementing the ERAM 
program. ERAM, which processes flight data to allow controllers to 
manage traffic at en route air traffic facilities, is a key foundation 
for realizing the benefits of NextGen's transformational programs, such 
as new satellite-based surveillance systems and data communications for 
controllers and pilots.
    Following extensive software-related problems that resulted in 
significant delays and cost increases, FAA has made progress with ERAM 
over the last 2 years. The Agency is now using ERAM at 18 of FAA's 20 
en route air traffic facilities either on a full- or part-time basis--a 
significant step forward given the extensive problems at the 2 initial 
sites. FAA plans for all 20 sites to achieve full operational 
capability and to decommission \23\ the legacy system by 2015.
---------------------------------------------------------------------------
    \23\ Decommissioning involves the disconnection, removal, and 
disposal of the HOST legacy computer system once ERAM has been declared 
operationally ready at a site.
---------------------------------------------------------------------------
    However, as FAA continues to deploy ERAM to the Nation's busiest 
facilities, such as those in New York City and Washington, D.C., it 
expects to identify new problems that could further impact cost and 
schedule. FAA is currently spending about $10.4 million a month on the 
ERAM contract.\24\ Also, FAA has already approved an additional $160 
million for ERAM enhancements through 2016 to help address site-
specific issues.
---------------------------------------------------------------------------
    \24\ This includes both capital and operations funding but does not 
include NextGen efforts, which are also funded against the same 
contract.
---------------------------------------------------------------------------
    In addition, controllers and experts continue to raise concerns 
about ERAM's capabilities. While these issues are not expected to delay 
ERAM's expected 2015 completion date, they will need to be addressed 
for the system to support most NextGen initiatives. Two capabilities 
raise most stakeholder concerns:

  <bullet> Flight Plan Trajectory Modeler--This capability models 
        aircraft flight paths to predict aircraft conflicts and to 
        ensure accurate handoffs between controllers as they 
        communicate with pilots who transition to airspace controlled 
        by another facility. However, the modeler software has often 
        required adjustments to change the flight plan trajectory to 
        ensure accurate handoffs. According to controllers, 
        improvements are needed to support current operations and 
        NextGen capabilities that use trajectory-based operations.\25\
---------------------------------------------------------------------------
    \25\ Trajectory-based operations focus on more precisely managing 
aircraft from departure to arrival with the benefits of reduced fuel 
consumption, lower operating costs, and reduced emissions.

  <bullet> Aircraft Tracking and Sensor Fusion--This capability allows 
        ERAM to integrate--or ``fuse''--multiple radars and satellite-
        based information for controllers. However, thus far, 
        controllers have not been able to take advantage of this 
        improved capability because of problems accurately integrating 
        radar and satellite data. A MITRE analysis found that the ERAM 
        tracker will require adjustments to use ADS-B and radar 
---------------------------------------------------------------------------
        together to manage air traffic.

    Moreover, two recent major system outages at two sites exposed new 
vulnerabilities in the ERAM system. The more severe outage occurred on 
April 30, 2014, at the Los Angeles Center and resulted in a significant 
disruption in air traffic control operations that impacted thousands of 
travelers. According to FAA, the outage was triggered by a flight plan 
for an Air Force aircraft flying at an extremely high-altitude--60,000 
feet--far above normal airline travel. This situation triggered an ERAM 
software glitch that caused the system to attempt to alter other 
aircraft flight plans, which overloaded the system for about 2 hours. 
Though less severe, ERAM also experienced an outage at the Miami center 
in February 2014 that caused delays or cancellations of hundreds of 
flights.
    FAA is working to address the root causes of these outages, has 
made emergency modifications to the ERAM software, and plans to include 
a more permanent fix in the next software release due later this year. 
Nevertheless, these outages raise questions about the long-term 
stability and security of the system, as well as its ability to support 
NextGen capabilities. It remains uncertain when ERAM will be stable 
enough to remove the back-up legacy system as FAA intends.
FAA Faces Significant Cost, Schedule, and Technical Risks in 
        Modernizing or 
        Replacing Automation Systems at Terminal Facilities
    FAA's TAMR program aims to modernize or replace all of the 
automation systems that controllers rely on to manage traffic at 
terminal facilities with a single automation platform--the Standard 
Terminal Automation Replacement System (STARS). If effectively 
implemented, TAMR is expected to reduce Agency costs and facilitate the 
implementation of NextGen capabilities. TAMR's current effort involves 
modernizing automation systems at 11 terminal facilities, 7 of which 
are the largest and busiest in the Nation. FAA estimates this effort 
will cost $438 million and will be completed between 2015 and 2017.
    However, as we reported in May 2013,\26\ the Agency faces 
significant cost, schedule, and technical risks to modernize these 
facilities. Specifically, FAA has yet to identify and finalize all 
software and hardware requirements that are needed to successfully 
replace the existing automation system \27\ with STARS. Finalizing 
these requirements involves extensive software development and 
testing--a lengthy and potentially costly process should issues arise 
during testing. FAA is currently developing software to address 94 
requirements gaps but anticipates identifying more gaps once it begins 
transitioning to STARS at the busiest facilities. Moreover, because 
full STARS capability at the 11 terminal facilities is still years 
away, FAA continues to add new capabilities to existing systems at 
select facilities to support air traffic operations. The longer FAA 
maintains and updates existing systems at these sites, the greater the 
implementation and cost risk because FAA will have to add the same 
capabilities to STARS.
---------------------------------------------------------------------------
    \26\ FAA's Acquisition Strategy for Terminal Modernization is at 
Risk for Cost Increases, Schedule Delays, and Performance Shortfalls 
(OIG Report Number: AV-2013-097), May 29, 2013.
    \27\ Common Automated Radar Terminal System (CARTS-IIIE) is the 
existing automation system currently at the 11 large terminal 
facilities.
---------------------------------------------------------------------------
    Furthermore, FAA's current cost and schedule estimates for its TAMR 
effort are not reliable. For example, FAA's approved program schedule 
does not include detailed milestones for software testing and 
implementation, and was not assessed for risk per Agency requirements. 
In addition, FAA's experience deploying STARS at the first site at 
Dallas Fort Worth Terminal Radar Approach Control (DFW TRACON) facility 
is proving more difficult than expected. According to FAA, DFW TRACON 
achieved initial operating capability (IOC),\28\ however, software 
requirements remain unstable. FAA has identified 46 additional 
requirements that will be needed to ensure STARS provides at least the 
same capabilities as the existing system at the site. FAA also 
determined that meeting the unique needs of the other 10 sites requires 
more enhancements or modifications than originally planned. As a 
result, the true timelines and costs to modernize terminal automation 
systems remain unknown, and FAA will likely have to secure additional 
funds for the program.
---------------------------------------------------------------------------
    \28\ Initial Operating Capability (IOC) is the milestone in which 
controllers begin to use the system on a limited basis to manage 
traffic.
---------------------------------------------------------------------------
    We made a number of recommendations to better and more cost-
efficiently manage FAA's terminal modernization efforts. FAA generally 
agreed with our recommendations and has begun working to address them.
Conclusion
    NextGen is a complex undertaking that will continue to pose 
challenges to FAA for years to come--challenges that have been 
exacerbated by unrealistic plans, budgets, and expectations for key 
NextGen programs. Going forward, FAA will need to provide a clear 
understanding of Agency priorities to decisionmakers and stakeholders 
and how the priorities are linked to its budgets. Most importantly, FAA 
must develop a reasonable and transparent action plan with firm 
commitments on milestones and metrics for measuring benefits--essential 
for building stakeholder confidence. Sustained leadership with clear 
lines of accountability and authority will be key to accelerating 
NextGen progress. We remain committed to monitoring FAA's NextGen 
efforts and identifying opportunities to improve implementation.
    Chairwoman Cantwell, this concludes my prepared statement. I am 
happy to answer any questions you or other members of the Subcommittee 
may have.

    Senator Cantwell. Thank you, Mr. Hampton. We certainly 
appreciate your report. It is very helpful, so we will have 
questions for you.
    Mr. Rinaldi?

  STATEMENT OF PAUL RINALDI, PRESIDENT, NATIONAL AIR TRAFFIC 
                    CONTROLLERS ASSOCIATION

    Mr. Rinaldi. Thank you, Chairwoman Cantwell, Senator 
Ayotte, members of the Committee for the opportunity to testify 
before you today.
    My name is Paul Rinaldi. I am the President of the National 
Air Traffic Controllers Association, NATCA. NATCA represents 
20,000 air traffic controllers, engineers, aircraft 
certification specialists, and other aviation safety 
professionals.
    As the working men and women who make up our nation's air 
traffic control system, our members are dedicated to furthering 
the public's interest and preserving and promoting and 
continuing to run the world's safest, most efficient airspace 
system.
    Our dedication is evident in our long history of supporting 
new technology, modernization, and enhancing our nation's 
complex and diverse aviation system.
    NATCA is a strong supporter of NextGen modernization 
projects currently underway, and we believe that these programs 
provide much needed improvements in enhanced efficiency and 
increase in safety of the national airspace system.
    NATCA is proud to be an active, involved stakeholder and 
applauds this committee for including stakeholder involvement 
provisions in the 2012 FAA reauthorization bill. The success of 
collaboration with the FAA and other aviation stakeholders on 
the NextGen Advisory Committee and RTCA has greatly improved 
the efficiency of the NextGen modernization process to the 
point that we are now seeing tangible results.
    So, the good news is there is progress out there, and it is 
benefiting the users of the national airspace system. Some of 
the highlights--optimization of airspace and procedures in the 
Metroplex, we call ``OAPM.''
    The FAA has recently implemented 61 new procedures through 
the OAPM process in Houston. These procedures will affect all 
aircraft around the Houston Metroplex and allow aircraft to be 
flown more efficiently with fewer altitude holds and speed 
restrictions.
    This will save millions of dollars in fuel each year, 
reducing the carbon footprint and eliminating noise on the 
environment. These procedures are comparative to you being on 
the highway setting your car at 55 miles an hour and never 
hitting the brakes until you get to your destination.
    This was a monumental task with a complete collaborative 
effort between the airlines, the pilots, the controllers, and 
FAA.
    Another area we are seeing success is re-categorization of 
wake turbulence separation standards, we call ``RECAT.'' 
Experts in wake turbulence, safety, and risk analysis have 
determined the decrease of separation between similar type 
aircraft is as safe or safer than current standards. RECAT has 
the capacity of enhancing safety, reducing delays, saving fuel, 
and reducing aviation's environmental impact.
    Memphis was the first facility to apply these new standards 
on November 1, 2012. Federal Express Airlines has been pleased 
with the results. Departure delays were reduced by 74 percent 
within the first week of implementation. Controllers have been 
very supportive of this technology and the tools that help them 
identify the weight categories of each airplane.
    We have rolled RECAT out to three other airports and we are 
seeing similar type benefits, and we look to expeditiously roll 
it out across the country.
    These are just a few examples of the benefits of NextGen, 
but I must say the aviation community and the FAA all see 
valuable benefits of modernization, and we believe if they 
continue the current practice of stakeholder collaboration, 
especially with the front line workforce, we will continue to 
see timely progress on many of these NextGen projects and 
improve the safety and efficiency of the national airspace 
system.
    The bad news is we are very concerned about the 
inconsistency and the unstable funding. In the past year alone, 
the government shutdown and mandatory sequester cuts have 
resulted in furloughs at the FAA and slowed and halted several 
essential NextGen projects, including ERAM and TAMR.
    ERAM and TAMR are the backbone of NextGen modernization. 
They are our platforms, and without updating our platforms, 
nothing else will work. When they are delayed, it is a domino 
effect, and all other programs will be delayed.
    Funding uncertainty has created a stop and go pace at the 
FAA. When you don't know what you are going to have three 
months from now, six months from now, or even trying to plan 
year to year, this causes delays and adds cost overruns to many 
projects.
    Along with stable funding, we would also like to see 
streamlining of the rulemaking process at the FAA. This is 
needed to be a priority, to take advantage of new procedures 
and equipment of NextGen. The long, laborious process currently 
in place wastes valuable time.
    NATCA believes these changes of stable funding and 
streamlining the rulemaking process along with continued 
stakeholder involvement are needed in order to successfully 
implement NextGen across this country.
    Madam Chairwoman, I thank you for the opportunity to 
testify in front of you today. I look forward to answering any 
questions you or the Committee may have.
    [The prepared statement of Mr. Rinaldi follows:]

  Prepared Statement of Paul Rinaldi, President, National Air Traffic 
                        Controllers Association
    The National Air Traffic Controllers Association (NATCA) is the 
exclusive representative of close to 20,000 aviation safety 
professionals, including more than 14,000 air traffic controllers 
serving the Federal Aviation Administration (FAA), the Department of 
Defense (DOD) and the private sector. In addition, NATCA represents 
FAA's Alaska flight service specialists, FAA engineers, traffic 
management coordinators, aircraft certification professionals, agency 
operational support staff, regional personnel from FAA's logistics, 
budget, finance, acquisitions, and information technology divisions, as 
well as agency occupational health specialists, and medical program 
specialists.
    Air traffic controllers are dedicated to ensuring that our National 
Airspace System (NAS) is the safest and most efficient in the world. In 
order to maintain that safety and efficiency, our controllers work to 
improve safety procedures, modernize the NAS, and promote new 
technology. We have professional controllers involved in nearly every 
modernization and Next Generation Air Transportation System (NextGen)-
related program the FAA is currently working on. Controller skills are 
put to work every day as they handle an impressive volume of flights--
air traffic controllers separate more than 70,000 flights each day, 
safely moving nearly two million passengers through our skies daily. 
Air traffic controllers handle these flights in the busiest and most 
complex airspace in the world with roughly 5,000 planes in the sky at 
any given moment.
Executive Summary
    NATCA is a strong supporter of the NextGen modernization projects 
currently underway. We believe these programs are much-needed 
improvements that will increase the safety and efficiency of the NAS. 
NATCA is proud to be an actively involved stakeholder, and applauds 
this Committee for its work in including a stakeholder involvement 
provision in the 2012 FAA Reauthorization Act. The success of our 
collaboration with the FAA and other aviation stakeholders has greatly 
improved the efficiency of the NextGen modernization process.
    At the same time, NATCA is concerned about the lack of stable 
funding for these important NextGen modernization projects. In the past 
year, mandatory sequestration cuts have resulted in furloughs at the 
FAA that slowed and halted several essential NextGen projects, 
including En Route Automation Modernization (ERAM), Data Communications 
(DataComm), and Terminal Automation Modernization and Replacement 
(TAMR). ERAM is the backbone of NextGen modernizations. When ERAM is 
delayed, other projects are also delayed in a domino effect. Funding 
uncertainty has also created a stop-and-go pace that adds cost overruns 
as air traffic controllers must be retrained each time a project is 
halted--lost time becomes lost money, and lost opportunity to reap the 
benefits of these modernizations.
    Today we would like to highlight the immediate effects that 
unstable funding has had on NextGen. Specific projects such as ERAM, 
TAMR, DataComm, and Performance Based Navigation (PBN) have all faced 
setbacks in the last year due to the April 2013 furloughs and the 
October 2013 government shutdown. These projects rely on stable funding 
in order to plan for test dates, training, and implementation of new 
procedures. Without stability, they lose time and money.
    This testimony will also provide an overview of several NextGen 
projects that are already showing beneficial results. NATCA believes 
that with the benefit of stable funding we will continue to reap the 
benefits of NextGen modernization projects, such as: the Optimization 
of Airspace & Procedures in the Metroplex (OAPM); Automatic Dependent 
Surveillance-Broadcast (ADS-B); Wide Area Multilateration (WAM); PBN; 
Re-Categorization of Separation Standards (RECAT); DataComm; and the 
Equivalent Lateral Spacing Operations (ELSO).
    The successes of these projects demonstrate the benefits of NextGen 
and why Congress should prioritize stable funding that allows for the 
projects to be completed. For example, Houston has successfully 
implemented a total of 61 new procedures through OAPM (this includes 50 
new procedures and 11 modified or amended procedures). These procedures 
will affect the airspace around Houston and allow aircraft to be flown 
more efficiently with fewer altitude holds and speed restrictions. The 
airlines' fuel savings from the implementation of Houston's OAPM are 
projected to be $9.2-$26 million each year.
    ADS-B in the Gulf of Mexico is already improving safety and 
efficiency. Controllers and pilots have benefitted tremendously from 
ADS-B. Aircraft flying westbound from Florida have been able to reduce 
delays because they can now remain in radar control when deviating 
south of course due to weather. In addition, helicopters flying to the 
oil platforms in the Gulf are delayed less frequently during poor 
weather because controllers are able to see them on radar now instead 
of working a manual non-radar grid system.
    Newark Airport has been conducting a trial of issuing clearances 
via DataComm. We anticipate benefits such as more efficient 
communication between pilots and controllers, fewer mistakes, and 
faster communication time, which saves valuable time when an aircraft 
is being rerouted.
    Again, NATCA believes that NextGen will increase the safety and 
efficiency of the NAS, and hopes that Congress adequately funds the 
programs so all aviation stakeholders reap the benefits of 
modernization.
Next Generation Air Traffic Control System
    NextGen is the FAA's effort to modernize the Nation's air traffic 
control system. NATCA fully supports NextGen modernization, which will 
allow the FAA to meet increased demand while improving the safety and 
efficiency of the NAS, reducing delays, and protecting the environment. 
According to the FAA's vision, NextGen will enable more aircraft to 
safely fly closer together on more direct routes, reducing delays, 
carbon emissions, fuel consumption, and noise.
    NextGen projects are transforming the national air transportation 
system by using new and existing technologies including satellite 
navigation and control of aircraft, advanced digital communications, 
and enhanced connectivity between all components of the NAS.
    NATCA is proud to be involved in all aspects of the process as an 
essential stakeholder. NATCA and the FAA both recognize that 
stakeholder involvement is the key to continued success to NextGen. We 
applaud the Committee for their efforts to ensure this collaboration 
through the stakeholder involvement provision in the 2012 FAA 
Reauthorization Act. In addition to being present on NextGen projects, 
NATCA is represented as a member of the RTCA, the FAA Management 
Advisory Council (MAC), and the NextGen Advisory Committee. Our 
presence, as well as that of other industry leaders, has been an 
important addition to the discussion on modernization.
Full Funding Is Essential for NextGen
    NATCA supports NextGen modernization projects and believes 
controllers and end users, including the traveling public and airlines, 
are already seeing benefits from these projects. Recent improvements in 
collaboration among all aviation stakeholders have resulted in smoother 
planning, development, testing, and implementation of many projects.
    However, while collaboration has greatly improved, it cannot 
overcome the negative consequences of unstable funding. We continue to 
see cost overruns and delays, which are certainly compounded when 
Congress is unable to provide stable, predictable funding. The April 
2013 furloughs, created by sequestration-mandated across the board 
budget cuts, created significant delays not just to aircraft, but also 
to important NextGen projects. The October 2013 government shutdown 
further compounded those delays. In order to continue benefiting from 
these modernization projects and seeing the results, Congress must 
provide stable and predictable funding to the FAA.
    In addition to unstable funding, NextGen is also hindered by an 
aging physical infrastructure. The FAA has had difficulty keeping up 
with repairs for the physical air traffic control towers, and lagging 
maintenance creates difficulties to teams working to develop and deploy 
NextGen technology.
    Between the week-long furlough of employees at the FAA in April 
2013 and the Federal Government shutdown in October 2013, the FAA lost 
time and money on several of its key projects. In both cases the FAA 
was required to suspend activities on many key programs, sending 
controllers working on these projects back to their facilities to work 
traffic or in some cases furloughing them. Timetables had to be pushed 
back, which increased costs and delayed other project timelines.
Specific Delays Due to Funding Lapses in 2013

  <bullet> En Route Automation Modernization (ERAM): ERAM, which is the 
        backbone of NextGen modernization, will replace the 40-year-old 
        En Route Host computer and backup system used at 20 FAA Air 
        Route Traffic Control Centers nationwide. The FAA has been 
        spending a significant amount of money to maintain and update 
        two systems simultaneously in order to continue running the NAS 
        at full capacity. ERAM was initially scheduled to fully replace 
        the old system in August 2014. As a result of the April 2013 
        furloughs, that completion date has been pushed to March 2015, 
        a delay that will cost in excess of $42 million.

    With the funding uncertainty of the last 12 months, the FAA has 
        attempted to reduce delays to ERAM for as long as possible by 
        stretching budgets in an effort to avoid cancelling testing and 
        training. They also sought to save money by cancelling 
        controller training trips to the FAA Technical Center (Tech 
        Center). By October 2013, the FAA had to cancel several tests 
        at key centers because previous delays made them impossible to 
        go forward. For example, if Fort Worth Air Route Traffic 
        Control Center (ARTCC or Center), Boston Center, and Memphis 
        Center were unable to complete their tests in October, the 
        training that had been completed by their controllers would go 
        stale, meaning that all participants would need to be 
        retrained. The retraining takes time and adds significant 
        additional cost. For example, New York and Washington Centers 
        had begun training their workforce for ERAM Operations prior to 
        the shutdown. They were scheduled to begin ERAM operations in 
        December 2013. The delay in their training has affected the 
        entire program by adding up to four additional months to the 
        current completion date of March 2015. The delays in 
        implementation cost $6 million per month.

  <bullet> Terminal Automation Modernization and Replacement (TAMR): 
        This program is modernizing the air traffic control systems at 
        the Nation's major airports as well as every Terminal Radar 
        Approach Control (TRACON) in the country. TAMR is scheduled to 
        replace some radar systems that are nearly 50 years old. Nearly 
        all of the Nation's 253 terminal facilities will be affected by 
        TAMR. TAMR's mission is to combine and upgrade multiple air 
        traffic control technologies to a single, state-of-the-art 
        platform called the Standard Terminal Automation Replacement 
        System (STARS), which will maintain the safety and increase the 
        efficiency of the NAS.

    Sequestration cuts and the 2013 government shutdown caused a ripple 
        effect for TAMR testing and deployment. Several projects were 
        delayed by months, and installations were postponed as a 
        result. The TAMR project team worked with a skeleton group 
        during the October 2013 shutdown. Due to economic uncertainty, 
        the FAA sent its subject matter experts back to controlling 
        traffic, which halted installations and tests, training 
        development, and training. All of these aspects were expensive 
        to shut down, reschedule, and finally restart. Essentially, the 
        cost and ramifications of the shutdown are just now being fully 
        realized. The consequences of installation and procurement 
        delays, along with the rescheduling of nearly every program 
        activity is far-reaching, and the cost has been estimated at as 
        much as $10 million per month. However, since the shutdown 
        ended the program has worked feverishly to recover lost time 
        through collaboration.

    TAMR is now in full deployment and technical refresh mode in all 
        three phases, having recently installed STARS at Dallas, Boise, 
        Kalamazoo, and Allentown, and conducted technical refresh 
        upgrades at Philadelphia and Miami. NATCA subject matter 
        experts (SMEs) are working in all areas of this program and 
        finding solutions to problems that have plagued modernization 
        efforts in the past. Installation of equipment as well as 
        modernization efforts are underway at literally dozens of 
        TRACON facilities across the country including: Northern 
        California, Southern California, New York, Atlanta, Denver, 
        Chicago, Louisville, St. Louis, Minneapolis, Potomac, Austin, 
        Billings, Tampa, Seattle, Salt Lake, Orlando, and more. NATCA 
        SMEs have contributed to the success of this program and an 
        incredible number of acquisition program baseline goals are 
        being reached on or ahead of schedule as a result.

    The reasons for TAMR's recent successes are many, but can only be 
        accomplished with a steady funding commitment. The program and 
        FAA are poised for monumental success like never before 
        provided that the adequate resources continue to be made 
        available. Staying the course and finishing this project is 
        vital to facilitate many NextGen programs.

  <bullet> Optimization of Airspace & Procedures in the Metroplex 
        (OAPM): Also known as Metroplex, OAPM works to increase the 
        efficiency of airspace by improving procedures. These changes 
        will provide economic benefits for airlines, as well as fuel 
        savings that are beneficial for the environment. We know from 
        initial testing at the Washington, D.C. location, for example, 
        that annual fuel savings are exceeding estimates and could be 
        as much as $19 million each year, and a reduction of 75,000 
        metric tons of carbon. Thus the real cost is the lost 
        opportunity for efficiency and sustainable economic benefits 
        for end users such as airlines. The shutdown halted progress 
        that was being made at nine test sites across the country. 
        Listed below are two examples of the impacts of the April 2013 
        (which lasted one week) sequestration furloughs and the October 
        2013 shutdown (which lasted 16 days).

    The Southern California test site was due to begin final 
        implementation of procedure changes in December 2014. Due to 
        the April and October 2013 stand down of the teams, the 
        implementation date was delayed to February 2016. Those delays 
        prevent estimated savings of $10-16 million a year in fuel, and 
        34,000-78,000 metric tons of carbon. A significant part of the 
        delays due to the fact that although the teams may have been on 
        hold for only one or two weeks at a time, they require months 
        to reassemble.

    The Houston test site was due to begin final implementation in 
        December 2013. That was delayed until May 2014 due to the April 
        2013 furloughs. Houston has just begun using its new procedures 
        (discussed later), but without the shutdown and furloughs, it 
        could have begun cost and fuel savings six months earlier.
When Fully Funded, NextGen is Already Showing Results
    While NextGen has struggled with funding uncertainty, there are 
also success stories of modernization projects that have already been 
implemented across the country. These changes assist our controllers in 
increasing efficiency and capacity of the NAS while maintaining the 
highest safety standards. Below are a few such examples of how NextGen 
projects are already benefiting the NAS:

  1.  Houston--Optimization of Airspace & Procedures in the Metroplex 
        (OAPM): OAPM study teams rely on current aircraft navigation 
        capabilities to enhance airport arrival and departure paths, 
        provide diverging departure paths to get aircraft off the 
        ground more quickly, and add more direct, high-altitude Area 
        Navigation (RNAV) navigation routes between metroplexes. These 
        changes reduce fuel consumption, providing economic benefits 
        for airlines as well as benefits for the environment.

     Houston is an example of a success story. However, while the 
        Houston test site was due to begin final implementation in 
        December 2013, it was delayed until May 2014 due to the April 
        2013 furloughs. Through the collaboration and hard work of the 
        facilities in the Houston area, a new type of air traffic 
        control began on May 28, 2014. A total of 61 new procedures (50 
        new procedures and 11 modified or amended procedures) were 
        implemented for Houston Center (ZHU), Houston TRACON (I90), 
        Houston Intercontinental Airport (IAH), and the satellite 
        airports including David Wayne Hooks Memorial (DWH), William P. 
        Hobby (HOU), George Bush Intercontinental (IAH), and Sugar Land 
        Regional (SGR).

     United Airlines is the main carrier at IAH, with Southwest being 
        the focus carrier at Houston Hobby Airport (HOU). These 
        airlines will see the most benefits from the implementation of 
        procedures that allow aircraft to be flown more efficiently 
        with less altitude holds and speed restrictions. The deployment 
        of the Houston OAPM should be the playbook for future 
        implementations. The airlines' fuel savings from the 
        implementation of Houston's OAPM are projected to be $9.2-$26 
        million each year.

  2.  Gulf of Mexico--Automatic Dependent Surveillance-Broadcast (ADS-
        B): ADS-B, one of the cornerstone components of NextGen, is a 
        form of surveillance that will replace traditional radar as the 
        primary surveillance method in the NAS. ADS-B involves the 
        broadcast of the GPS-derived position report of an aircraft or 
        vehicle. As this technology continues to evolve and aircraft 
        equip with ADS-B Avionics, controllers will see an increase in 
        surveillance coverage not provided by traditional radar 
        sources. At this time, the FAA has completed the physical 
        infrastructure of the ADS-B network. Even more importantly, 
        they have successfully integrated ADS-B data into existing ATC 
        automation systems, meaning that air traffic controllers can 
        see the new ADS-B information.

     The benefit of having increased surveillance coverage is limited 
        to the number of aircraft that have certified Minimum 
        Operational Performance Standards (MOPSB) avionics (this meets 
        the certification requirements in the FAA ADS-B Mandate of 
        2020). As of May 31, 2014, the installation of FUSION has 
        reached over 30 facilities and Houston ARTCC (ZHU) is using 
        ADS-B in the Gulf of Mexico. For many years non-radar control 
        was the only option for controllers when working air traffic 
        through and in the Gulf of Mexico. As ADS-B became a reality, 
        controllers and pilots have benefitted tremendously from this 
        technology. Aircraft flying westbound from Florida have been 
        able to reduce delays because they can now remain in radar 
        control when deviating south of course due to weather. In 
        addition, helicopters flying to the oil platforms in the Gulf 
        are delayed less frequently during poor weather because 
        controllers are able to see them on radar now instead of 
        working a manual non-radar grid system.

  3.  Colorado--Wide Area Multilateration (WAM): WAM is an independent, 
        cooperative surveillance technology based on the same time 
        difference of arrival principles that are used on an airport 
        surface. Several ground-based receiving stations listen to 
        signals transmitted from an aircraft and then mathematically 
        calculate its position in three dimensions. This data is 
        transmitted to screens viewed by air traffic controllers for 
        separation of aircraft. WAM can interface to terminal or en-
        route automation systems.

     WAM is beneficial in locations with limited visibility. For 
        example, controllers at Denver Center (ZDV) were handicapped 
        when providing air traffic control services because they lacked 
        radar services below 17,000 feet. With the deployment of WAM, 
        controllers can actually see the aircraft moving on the surface 
        of many airports and aircraft remain in radar control for their 
        entire flight. This has two very significant consequences for 
        controllers: controllers are able to reduce separation due to 
        the elimination of non-radar procedures and new procedures that 
        reduce departure delays are being created thanks to better 
        surveillance.

  4.  Phoenix--Performance Based Navigation (PBN): The development and 
        implementation of PBN will create more defined routing for 
        aircraft, which ultimately increases the number of aircraft 
        that controllers can direct. These new procedures will improve 
        the fuel efficiency for the airlines and create safer and more 
        efficient procedures for air traffic.

     In Phoenix, aircraft arriving from the east were being delayed or 
        given excessive vectors due to traffic congestion. Teams 
        consisting of the FAA, NATCA, and the users met to establish 
        PBN/RNP procedures that have shown benefits to the airlines, 
        business jets, and general aviation aircraft by modifying the 
        flight routes and avoiding that congestion.

     While Phoenix is a case study in the benefits that PBN can give to 
        the aviation industry as a whole, the government shutdown had a 
        tremendous effect on PBN projects across the country because 
        the schedule for designing and implementing PBN procedures is 
        precise and any delay causes procedures to slip to future 
        production dates. Every time this happens the new benefits are 
        lost for that time period and it affects other procedures in a 
        domino effect. A lot of time and effort--and therefore money--
        was spent in assessing what procedures could be developed and 
        implemented along with their timelines.

     As a result, everything had to be rescheduled. Some projects 
        slipped and some procedures were cancelled. Each time something 
        like this happens, funding has been wasted because the work has 
        to be redone to meet requirements. Many benefits have already 
        been lost and will continue to be lost due to unstable funding.

  5.  Memphis--Re-Categorization of Separation Standards (RECAT): 
        Experts in wake turbulence, safety, and risk analysis have 
        determined that decreasing separation between similar type 
        aircraft is as safe, or safer than, current standards and 
        increases efficiency and capacity, meaning that like other 
        NextGen projects, RECAT has the capacity to enhance safety, 
        reduce delays, save fuel, and reduce aviation's environmental 
        impact.

     Memphis Tower and TRACON were the first facilities to apply the 
        new standards on November 1, 2012. The recategorization of Wake 
        Turbulence is one of the most beneficial improvements when 
        comparing the cost of implementation with the savings by the 
        users. In Memphis, FedEx has been pleased with the results. 
        Departure delays were reduced by 74 percent in the first week 
        of implementation. Controllers have been very supportive of 
        this technology and the tools provided to them identifying the 
        weight category of each aircraft.

  6.  Newark -Data Communications (DataComm): DataComm will reduce 
        frequency congestion by allowing the controller and pilot to 
        communicate directly via digital communication (much like a 
        text message). It will also reduce confusion because the 
        message will be in print form and not copied over the 
        frequency. A majority of these messages will be integrated into 
        the flight deck avionics to help save time and remove issues of 
        incorrect data entry.

     One beneficial application of DataComm is evident during severe 
        weather, when an aircraft may receive several different routes 
        within a period of 30 minutes. With DataComm, revised routes 
        can be sent with a few clicks to the flight deck, saving 
        valuable time as the aircraft is rerouted. This is especially 
        helpful when there is a language barrier that could occur with 
        non-English speaking pilots. DataComm also benefits surface 
        operations by saving time, which reduces the backlog that could 
        otherwise occur when aircraft are holding for a departure 
        clearance.

     Newark Airport (EWR) has been conducting a trial of issuing 
        clearances via DataComm. While the program has a long way to 
        go, it is apparent the benefits of this initiative will be 
        substantial for controllers and users.

     The 2013 government shutdown affected ERAM implementation, which 
        in turn affected the schedule of implementation of DataComm 
        functionality at the NAP (National Application Processor) Realm 
        in Atlanta ARTCC (ZTL). The NAP Realm contains the logic for 
        aircraft logons. There are two NAP Realms, one at Salt Lake 
        Center and the other at Atlanta Center. If one fails, the other 
        is used as a backup. This means that the key site, Salt Lake 
        City Tower (SLC), will not have logon redundancy in the event 
        of a failure, and controllers would have to abandon DataComm 
        functionality and revert to voice communication.

  7.  Atlanta--Equivalent Lateral Spacing Operations (ELSO): ELSO is a 
        procedure that enables the world's busiest airport to depart 
        aircraft on diverging course much closer than in the past. 
        ELSO, developed by the Mitre Corporation in 2011, added two 
        departure routes at Hartsfield-Jackson Atlanta International 
        Airport (ATL) due to an updated separation standard. The 
        introduction of ELSO at ATL enables simultaneous and successive 
        diverging departure operations by creating two departure tracks 
        for each runway end during normal runway operations. When the 
        weather is not conducive or the pilots are unwilling or unable 
        to fly the RNAV routes, controllers revert back to the standard 
        divergence. The angle between departure routes decreased from 
        15 degrees to 10 degrees, and the time between departures was 
        reduced from two minutes to one minute, taking advantage of 
        RNAV technology. Controllers at ATL now clear between eight and 
        twelve more planes for departure each hour. Controllers rely on 
        ELSO to expedite departures at this busy airport. The airlines 
        serving ATL have experienced reduced delays and controllers 
        have a more predictable course that is set for the aircraft. 
        Initial reports are positive from both pilots and controllers.

     The advantages of ELSO have somewhat of a domino effect. Because 
        ELSO reduces the need for a triple departure configuration at 
        ATL, there is a reduction in controller workload. This also 
        spurs fuel and time savings for departing aircraft.
NATCA Recommendations
    The aviation community and the FAA all see the value and benefits 
of NextGen modernization projects. We are working collaboratively to 
complete testing and implementation of some key programs, as described 
above. At this time, NextGen needs assurances from Congress that it 
will provide stable and predictable funding for the duration of the 
projects. Below are NATCA's formal recommendations for how Congress can 
assist the FAA, NATCA, and other stakeholders in successfully 
completing NextGen modernization projects.

  <bullet> Stable and Predictable Funding: NextGen must be fully funded 
        through the regular appropriations process. Attempting to fund 
        these projects with continuing resolutions, or worse, not at 
        all, as happened during the October 2013 shutdown, has 
        significant detrimental effect on NextGen progress.

  <bullet> Continued Collaboration: Congress and the FAA should 
        continue to focus on collaboration and stakeholder involvement 
        in order to set and reach realistic deadlines.

  <bullet> Streamlining the Rulemaking Process: The FAA's long and 
        laborious rulemaking process costs valuable time. Changes are 
        needed in order to streamline the rulemaking process to better 
        implement new efficiencies.

    Senator Cantwell. Thank you, Mr. Rinaldi. Thank you very 
much for being here.
    Mr. Beck, welcome. We look forward to your testimony.

  STATEMENT OF GARY BECK, VICE PRESIDENT--FLIGHT OPERATIONS, 
                        ALASKA AIRLINES

    Mr. Beck. Thank you, Chairwoman Cantwell, Ranking Member 
Ayotte, and members of the Subcommittee. My name is Gary Beck 
and I am the Vice President of Flight Operations for Alaska 
Airlines. It is my pleasure to testify today on the safety 
impact and efficacy of NextGen programs, specifically the 
Greener Skies initiative.
    I also serve as the Co-Chair of the NextGen Implementation 
Working Group, and I am on the Subcommittee of the NextGen 
Advisory Committee. I am appearing today in my Alaskan 
Airlines' capacity.
    Greener Skies began in 2008 to improve the efficiency of 
flights landing at SeaTac Airport, thereby reducing fuel usage, 
carbon emissions, and noise pollution. Greener Skies is the 
evolution of a long term initiative of Alaska, started in the 
mid-1990s, to use Required Navigation Performance or RNP 
technology to improve safety, enhance sustainability, and 
decrease the environmental impact of our flight operations.
    Alaska was the first U.S. air carrier to invest in RNP and 
we are further along than any other airline in using these 
technologies to benefit our customers and our partners.
    Greener Skies seeks to increase airspace efficiency by 
implementing rule changes so that aircraft can approach the 
airport with substantially reduced separation and do so from 
straight and curved paths.
    This is occurring in two phases. First, we have instituted 
new arrival procedures that take the aircraft from cruising 
altitude to a few thousand feet above the ground. Second, we 
are pursuing a rule change that will address the aircraft's 
final approach from that lower altitude all the way to the 
runway.
    The new protocols allow the aircraft to make a continuous 
descent rather than requiring it to level off intermittently. 
Basically, NextGen arrivals are akin to an airplane sliding 
down the banister rather than taking the stairs. The impacts so 
far have been significant. The new procedures have cut 17 miles 
from previous flight paths.
    That may not sound like much, but when considering that an 
estimated 30,000 aircraft fly this arrival path each year, that 
is from all airlines, not just Alaska, we can expect a 
reduction in CO<INF>2</INF> emissions from the decreased fuel 
usage equivalent to removing 4,100 automobiles from the road. 
When considering the growth in air traffic forecasts for 
Seattle, the benefits will only increase.
    Despite these advancements, phase two of Greener Skies has 
encountered set-backs in its approval process. It is time to 
extend these benefits all the way to the runway.
    As an early adopter and champion of these initiatives, 
Alaska Airlines hopes we can count on congressional support to 
advance three key issues. My written testimony expands on these 
requests.
    First, approve the FAA rule change for ``Established on 
RNP,'' allowing aircraft to approach the runway on NextGen 
flight paths. Two, publish and implement the amended RNP 
approach procedures to ensure they are used to their fullest 
extent as quickly as possible. Three, support an FAA post-
implementation benefits analysis of the Greener Skies 
initiative to provide verifiable data on the benefits and 
impact of the program.
    The airline industry benefits greatly from NextGen policies 
and procedures, and Alaska Airlines has been a strong proponent 
of their implementation. Safety, environmental stewardship, and 
customer satisfaction all follow from these initiatives.
    We could be doing much more. We depend upon your support 
and our continued partnership with the FAA to ensure that 
NextGen and the Greener Skies initiative create as much benefit 
as possible.
    This concludes my oral testimony, and I am pleased to 
answer any questions from the Committee.
    [The prepared statement of Mr. Beck follows:]

  Prepared Statement of Gary Beck, Vice President--Flight Operations, 
                            Alaska Airlines
    Chairwoman Cantwell, Ranking Member Ayotte, and members of the 
Subcommittee:

    My name is Gary Beck and I am the vice president of Flight 
Operations for Alaska Airlines. It is my pleasure to testify today on 
behalf of Alaska Airlines on the safety, impact and efficacy of NextGen 
programs, specifically the Greener Skies initiative. In addition to my 
role at Alaska Airlines, I also serve as the co-chair of the NextGen 
Implementation Working Group focused on expanding the use of 
Performance-Based Navigation across the country, and I am on the 
subcommittee of the NextGen Advisory Committee. I submit today's 
testimony in my Alaska Airlines capacity.
I. Background on the Greener Skies Initiative
    Greener Skies began in 2008 as a partnership between Alaska 
Airlines, The Boeing Company, and the Port of Seattle. Our goal was to 
improve the efficiency of flights landing at SeaTac airport, thereby 
reducing fuel usage, carbon emissions and noise pollution. Greener 
Skies is the evolution of a long-term initiative at Alaska to use 
Required Navigation Performance (RNP) technology to improve safety, 
enhance sustainability and decrease the environmental impact of our 
flight operations.
    Alaska has long been a pioneer in integrating RNP technologies into 
our operations. Our work in this area can be traced back to the mid-
1990s when we used RNP-guided flight paths to direct our aircraft 
operating out of the Juneau airport, a location known for its bad 
weather and mountainous terrain. The challenges posed by the Juneau 
environment spurred our entrance into this space, leading Alaska to 
invest early in innovative technologies that could help us more 
reliably and safely serve communities throughout the state of Alaska. 
In so doing, our corporate leaders took a risk in being the first major 
U.S. air carrier to invest in RNP, an unproven technology at that time. 
That risk was certainly worth taking, and because of that early work 
Alaska is further along than any other airline in using these 
technologies to benefit our customers and partners.
    From its inception at the Juneau airport, we have taken RNP 
technologies to the next level with the Greener Skies initiative. In 
2010 the FAA, with whom we have a long history of successful 
collaboration, declared our project in Seattle a NextGen initiative. 
The primary objective of the project was to study the feasibility of 
two instrument approach streams to parallel dependent runways (runways 
separated by 2,500 to 4,300 feet) with:

  <bullet> one aircraft arriving on a straight-in flight approach,

  <bullet> an adjacent aircraft arriving on a curved path to a parallel 
        runway,

  <bullet> and both considered ``established'' on the approach, with at 
        least one of the aircraft using NextGen guidance technology.

    Today, aircraft must be separated by 1,000 feet vertically or three 
nautical miles laterally until they are ``established'' on straight-in 
final segments to dependent parallel runways. One of the key goals of 
NextGen is to implement rule changes that allow aircraft to be 
established on both curved and straight-in paths, allowing for reduced 
separation between the aircraft of just 1.5 nautical miles diagonally. 
The key benefit of reduced separation is increased airspace efficiency. 
Thirteen airports in the National Airspace System (NAS) would benefit 
from this rule change.
    The initial phase of the Greener Skies initiative was to develop 
and implement two Area Navigation (RNAV) arrivals and six RNP 
approaches. In navigational parlance, arrivals are published flight 
procedures that take the aircraft from its cruising altitude to a much 
lower altitude, typically a few thousand feet, in the airport vicinity. 
Approaches are procedures that take the aircraft from that position all 
the way to the runway. The primary benefit of the NextGen procedures is 
that they allow the aircraft to make a continuous decent rather than 
requiring it to level off intermittently. A helpful analogy is that 
NextGen arrivals are akin to the plane sliding down the banister rather 
than taking the stairs.
    In the summer of 2013, after several years of exhaustive trials, 
training, safety assessments and FAA airspace negotiations, we were 
able to publish and implement the two arrival procedures outlined in 
phase one of Greener Skies (HAWKZ and MARNR). We overcame some initial 
challenges and at the end of August, with support of the FAA, all 
qualified and equipped aircraft and airlines arriving in Seattle from 
the north, south, and west began using the NextGen arrival procedures. 
This success continues today.
    We are currently in phase two of Greener Skies, and our objective 
is to obtain a waiver to the Air Traffic Control Handbook that would 
allow the implementation of the ``Established on RNP'' procedure. This 
mechanism will allow for the reduced separation of 1.5 miles between 
approaching aircraft, and for those aircraft to approach on both 
straight-in and curved paths. This reduction in separation is a key 
factor in reaping the full benefits of the Greener Skies initiative.
II. Benefits of Greener Skies
    We have seen significant positive impacts from the implementation 
of our two RNAV arrival procedures. For aircraft landing to the south, 
the HAWKZ procedure provides a 17-mile savings over previous landing 
procedures. That may not sound like much, but when considering that an 
estimated 30,000 aircraft fly this arrival path each year (from all 
airlines, not just Alaska), the fuel burn reduction quickly adds up. 
With an average of 44 gallons of fuel saved per flight, we can expect 
1.3 million gallons of annual savings for aircraft arriving Seattle. 
Early modeling shows an expected reduction in CO<INF>2</INF> emissions 
equivalent to 4,100 automobiles. And when considering the growth in air 
traffic forecast for Seattle, the benefits will only increase.
    Additionally, we have worked closely with the Port of Seattle to 
ensure the procedure designs do not affect the Port's long-standing 
noise-abatement corridors. The flight procedures are optimized to 
concentrate flights over Puget Sound and compatible land uses, reducing 
the number of people who experience aircraft overflights. Greener Skies 
has allowed Alaska to continually find innovative ways to serve our 
customers, the communities in which we work and reduce our 
environmental impact.
III. Challenges
    Our integration of NextGen programs has been a marked success. But 
despite these benefits, we face challenges in fully implementing 
NextGen and ensuring our initiatives have the greatest positive impact 
they can. We have experienced significant success implementing the two 
new arrival procedures as part of phase one of the Greener Skies 
initiative. But the second phase, which will deepen the impact of this 
program by optimizing our approach protocols in tandem with the arrival 
procedures, has encountered setbacks in its approval process. In short, 
the benefits we gain during the decent from cruising altitude to the 
beginning of our final approach are considerable; extending those 
benefits all the way to the runway is our next goal.
    As an early adopter and champion of these initiatives, Alaska 
Airlines hopes we can count on Congressional support to advance three 
key issues:

  a. Approve the FAA rule change for ``Established on RNP''
    The rule changes that follow from the ``Established on RNP'' waiver 
        are crucial to NextGen implementation. Roadblocks exist in this 
        space, in many cases understandably. But approval of the rule 
        change is a necessary first step to ensure the beneficial 
        impacts of NextGen.

  b. Publish and implement the amended RNP approach procedure
    Though the approach procedures were published in 2013, they are not 
        fully used--with the notable exceptions of the Denver and 
        Portland airports. These procedures must be amended and fully 
        implemented. We currently foresee a minimum two-year delay from 
        initial publication, which further stalls the benefits of 
        NextGen. Additionally, continuity in the teams developing these 
        procedures will reduce the time to implementation.

  c. Support an FAA post-implementation benefits analysis of the 
        Greener Skies initiative
    It is important that we have verifiable data on the benefits and 
        impact of the Greener Skies initiative. We have begun culling 
        that data ourselves, but we ask the FAA to take a leadership 
        role in developing a benefit analysis in order to validate the 
        metrics we use to measure the impact of Greener Skies.
IV. Conclusion
    The airline industry benefits greatly from NextGen policies and 
procedures, and Alaska Airlines has been a strong proponent of their 
implementation. Safety, environmental stewardship and customer 
satisfaction all follow from these initiatives. But we could be doing 
much more. Arrival procedures have seen dramatic improvement. But we 
have an opportunity to make further progress by integrating our 
approach procedures with those arrival protocols. We depend upon your 
support and our continued partnership with the FAA to ensure that 
NextGen and the Greener Skies initiative are as impactful at the 
national and local level as we know they can be.

    Senator Cantwell. Thank you. We will start a round of 
questioning of 5 minutes each from my colleagues.
    I think in just summarizing where I see this discussion 
because all of you have added some very good input, I think the 
public first of all does not understand all the acronyms and 
what it all means, they just know the promise that we keep 
saying this is going to deliver to them in more fuel efficient 
planes.
    And it looks like half of the money we have spent so far is 
on this ERAM system, which is supposedly, on its way, I guess 
might be a way of saying it.
    But I guess my question is, you know, we have this almost 
chicken and egg situation with the industry. On one end, Mr. 
Beck has moved--his airline has moved--very quickly in 
establishing even prior to this, a Greener Skies navigation 
system, again, focused on the terminal end, but you know, made 
the investment, moved ahead.
    I guess what I am saying is we want to see more of a 
partnership with the FAA and industry, because industry also 
needs to make these same implementations, but if that 
progress--I am not sure ``stalemated'' is the right word, but 
delayed--then where we are right now is we have spent $5 
billion, the industry may not be moving fast enough, it wants 
to move faster, so we are kind of doing an across the board 
let's implement each aspect of the software as opposed to maybe 
the most leveraged things.
    Now I know the ERAM system is one of the most leveraged 
things that we have to get done, but when I look at this end of 
the table, Mr. Beck, I think well, why not implement as the 
NextGen Advisory Committee suggested, making Performance Based 
Navigation a very, very high priority, and why not implement 
across the country a more rapid deployment of the system.
    So, my understanding is we have the Metroplex in--is it 
Dallas?
    Voice. Houston.
    Senator Cantwell. Houston, that is going to go next, but 
then the next set, it is going to take us like six years to 
implement. Can't we move faster at getting these Performance 
Based Navigation systems in place sooner while we are working 
obviously on the back end system, because they obviously did 
not need the ERAM system before they started making changes.
    So, I guess what I am asking, and I would love everybody's 
input, are there some more low hanging fruit that brings in the 
actual partnerships faster and the actual realized savings 
faster than just saying to the taxpayer we are going to spend 
another $5 billion before we see the major benefits?
    So, anybody who wants to answer that.
    Mr. Whitaker. Yes, thank you, Chairwoman Cantwell. If I can 
start, I think communicating about NextGen has been one of our 
great challenges, and one of the things we are focused on is to 
try to improve that communication, and part of that 
communication is to point out that we are very close to 
completing that foundational phase.
    Regardless of whether this was going to be called NextGen'' 
or something else, we were operating the air traffic control 
system with equipment from the 1970s and the 1980s, and it had 
to be upgraded, and a big portion of NextGen was to upgrade all 
that equipment.
    So, we are closing in on the completion of that, and that 
will enable additional technologies, but the other focus has 
very much been, at least in the last year, on working with 
industry through the NAC, understanding the priorities, and 
then trying to match those priorities with our budget and our 
capabilities, and what is ready to be rolled out.
    PBN is clearly front and center in that. The Houston----
    Senator Cantwell. Performance Based Navigation.
    Mr. Whitaker. Yes, Performance Based. ``Metroplex'' is even 
a better term. The Houston Metroplex has been a great success, 
and the new routes are achieving an 80 percent usage rate, so 
we have ironed out some of the issues about usage. We are 
seeing a very successful program. We are receiving e-mails from 
pilots who are raving about it versus other problems they have 
experienced in the past.
    Senator Cantwell. Great, so why not move up that deployment 
more rapidly, because my understanding of what is going to 
happen is we are going to see them come online and then over 
the next 4 years, we will see like a little dribble of----
    Mr. Whitaker. So, we have a dozen more in the next three 
years, and we have, I think, a pretty aggressive schedule. The 
issue is that every airport is different, every airspace 
redesign is different.
    So, we have certainly learned lessons from Greener Skies 
and from other efforts, but we feel that Houston really shows 
all of those efforts coming together, and I know Paul can 
comment on that. We had a very close collaboration, and I think 
that collaboration has been what has made it so successful.
    So, there have been learnings from the past, but it is 
clearly a focus of the NextGen Advisory Committee and the FAA.
    Senator Cantwell. Anybody else want to comment on that?
    Mr. Rinaldi. I would like to, Chairman. Mike Whitaker is 
absolutely correct. Houston is completely different but what we 
have now is a good play book to move forward. Houston took 
somewhere between 18 months and 24 months to develop, and 
instead of doing one or two approaches like we did with Greener 
Skies in Seattle, we did the whole Metroplex, 61 procedures. 
Monumental task. We did not know how that was going to work.
    Controllers trained right up to the last day, and the way 
they were working airplanes and the way the pilots were flying 
the airplanes the day before, on May 28, changed with a snap of 
the fingers at six in the morning on May 29.
    It was a huge success. We now have a good platform where we 
don't just change one or two procedures within Seattle, but 
maybe we can go back in there and actually re-do all of the 
procedures within Seattle and see the benefits.
    So, I think getting Houston under our belt and actually 
having that platform gives us the ability to be successful. 
North Texas will be next, and then we will start looking at 
Southern California and Northern California also.
    Senator Cantwell. Thank you. Senator Ayotte?
    Senator Ayotte. I want to thank all of you for being here. 
Mr. Whitaker, I love that we share New Hampshire as home, so 
thank you for being here, I appreciate it.
    I wanted to follow up on Senator Cantwell's question about 
the PBN, Performance Based Navigation procedures, so we are not 
all using acronyms.
    As I understand the IG's recommendation, in terms of what 
the Chair has asked about more quickly implementing these 
measures across the country, I read his report to say that he 
has recommended that you complete an action plan and develop 
milestones to increase the use of the PBN procedures.
    So, could you comment on that, and I hope you will commit 
to doing that, because as you had the experience you were 
talking about in Dallas and taking those lessons from it, and 
looking to what was the absolutely great point the Chair made, 
how do we accelerate this procedure across the country?
    I would love to hear your response to what they recommend 
so that we can take those lessons and more quickly move forward 
with this so people can really see the tangible benefits of 
NextGen.
    Mr. Whitaker. Thank you, Senator. We have looked at the 
work that the IG has done on PBN, Performance Based Navigation, 
as well as the NAC. The NAC has a working group that focuses 
just on implementation, because it is such a high priority, and 
we are fusing the results of that work into action plans around 
how to execute more efficiently.
    I will say that we have reached a tipping point. We have--
over half the routes are now PBN routes. When we first started 
this process, I think we had a bit of a first come/first serve 
basis, rather than having a holistic plan for implementation.
    So, we are going through the previous routes and culling 
out ones that do not have utilization or may somehow clog the 
system, and then we are focused on much more of a holistic 
national plan for the route network.
    Metroplex is a big part of that because that allows us to 
get at some of the congestion most efficiently. The PBN 
implementation is a key focus of the NAC and clearly a priority 
for us as well.
    Senator Ayotte. Mr. Hampton, do you have a comment on this 
discussion, having obviously looked at this in your report?
    Mr. Hampton. Yes. The FAA did concur with our 
recommendation, and they fully understand the importance of 
PBN. However, I want to point out that maximizing the benefits 
of Performance Based Navigation relies on a couple of things. 
One is adjusting the Controller Handbook, and that was done in 
Houston, and a lot of work is underway, I would say roughly 
half of the 15 ones on target have been completed.
    So, you need an integrated approach. Not only that, you 
need training for the controllers at that specific facility. 
That will help maximize the benefits. At some point, there will 
be an additional controller tool set that will be needed to 
help them better manage aircraft.
    I think what you will see coming out from the NAC report 
and FAA's response is a very integrated approach to developing 
PBN. You need all the pieces to line up to deliver the 
benefits, and I think the FAA is working very well with 
industry and the controllers in that regard.
    Senator Ayotte. Mr. Hampton, I wanted to follow up with you 
on some of the other findings that you had in the report.
    You talked about the measures that have been implemented 
and talked about the things FAA has done, but I also saw a 
number of issues that you raised in your report, including slow 
progress in meeting deadlines and implementing core components 
of the program, cost increases and schedule delays, and long-
standing programmatic and organizational challenges.
    So, is this a funding issue or is this an issue that is 
focused on what needs to be done from the FAA, and can you help 
me understand how we deal with some of the issues that I see in 
your report that are obviously independent of funding?
    Mr. Hampton. Thank you for the question. The problems that 
we have seen with NextGen and execution are not traceable to an 
issue of funding.
    Congress had provided FAA in the neighborhood of between $5 
billion to $6 billion for NextGen. In the 2008-2009 time frame, 
the appropriators gave more money than FAA requested to 
accelerate key NextGen technologies.
    Money may be an issue going forward, but in the past, it 
was not. We do recognize that the sequester did cause some 
disruptions to FAA programs, but by and large, money has not 
been a problem with the execution of NextGen. It is more 
traceable to defining requirements and developing an executable 
plan.
    Senator Ayotte. Is that the number one issue, you think, 
defining requirements and----
    Mr. Hampton. Yes, that is the root cause of most of the 
problems with NextGen. Another point is integrating and 
developing capabilities at specific locations. I think the FAA 
is getting to the point now in response to the NAC focusing on 
a set of priorities.
    The priorities the NAC recommended--Performance Based 
Navigation, surface operations, closely spaced parallel 
runways, and DataComm, DataComm is a little further off--
represent--are pretty good places to go. There are 
opportunities for tremendous benefits.
    So, it is a question of focus. FAA cannot afford to advance 
NextGen on a broad front, but rather on a more focused and 
concentrated way, and I think their budgets and plans need to 
reflect that.
    Senator Ayotte. Thank you.
    Senator Cantwell. Thank you. Senator Booker?

                STATEMENT OF HON. CORY BOOKER, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Booker. Can you repeat what you just said? You said 
the FAA cannot afford to do it on a broad front?
    Mr. Hampton. Let me rephrase that. The past plans were 
relatively unconstrained, and that hurt FAA's ability to 
actually execute. I think it is the best practice throughout 
business and industry to focus on several key areas and execute 
them, go to the areas that have the most positive return on 
benefit.
    Senator Booker. So, help me understand, just for my 
concern. The airport systems in the region of the country in 
which I am in, in New Jersey, Newark Liberty is the fifteenth 
busiest airport in North America, and once you combine that 
with JFK and LaGuardia, you have now got the busiest airport 
system in the entire United States, which makes us one of the 
busiest airport systems globally.
    So, my concern is with the numbers of near misses, the 
challenges we have--Mr. Rinaldi and I have talked about 
staffing issues and the like--safety is the number one concern 
that I have.
    While I am thrilled about the long-term impact that the 
implementation of NextGen will have, I mean extraordinary 
benefits environmentally, and I can go on, I am very, very 
concerned about the speed with which we are addressing the 
issues in the Newark Liberty Airport area.
    You hit right to the root of what my concerns were, which 
is why are we moving as slow, why can we not move faster? So, 
you are telling me it is not a funding issue at all?
    Mr. Hampton. In the past, it has not been a funding issue. 
We did a report last year and it focused on some of the causes. 
Chief among them was an inability to define requirements, 
developing an executable plan, and an agency culture that was 
resistant to embracing the NextGen culture and change, and 
making significant changes in how air traffic is managed.
    Senator Booker. So, lack of a plan, some technical issues?
    Mr. Hampton. Correct.
    Senator Booker. These are the issues that have been sort of 
causing the slow pace going backward, but as you look at the 
advancing forward--let's go with the next year to 2 years, is 
the funding that we are looking at--because right now, the 
Fiscal Year 2015 budget submitted to Congress contains around a 
$174 million shortfall compared to the Fiscal Year 2014 related 
to the NextGen budget.
    I look at that discrepancy, and I am wondering if the 
research and development portion, which was cut approximately 
$43 million--is this causing a strain basically in terms of the 
FAA's ability to address the challenges?
    I do not mind if Mr. Whitaker or Mr. Hampton answers that.
    Again, I am proud of New Jersey's role. I mean, you know, 
the facility in Atlantic City, we are focused really on the 
DataComm technology that you discussed, and I am really proud 
of the role my state is playing in all this.
    But again, that budget differential, how is that going to 
impact the future implementation?
    Mr. Hampton. On that question, sir, thank you very much. 
That is the point we have made, is going forward, it is very 
important for the FAA to clearly lay out what its requirements 
are in terms of funding for NextGen, sustaining the NAS, and 
also what the key R&D elements that still have to be done to 
advance some of the more advanced concepts. I think that is an 
important question particularly as FAA reauthorization comes 
forward.
    The FAA has to balance sustaining the existing system, 
running the system, which they do very well, and introducing 
new capabilities. I think it is paramount that the FAA gives 
this committee a clear understanding of what its resource 
requirements are. I think that is essential.
    Senator Booker. Mr. Whitaker?
    Mr. Whitaker. Thank you, Senator. If I may just comment, I 
think one area--one challenge we have with NextGen--is that 
people do not realize it was designed as a twenty-year 
endeavor. So, if you look at our funding stream, 20 years, $20 
billion program, the first time we hit that funding level was 
2009. So, we are not that far down the path as it was laid out.
    One of the areas where we do not agree with the IG is that 
we view this as an endeavor that you approach in segments. You 
do not have to define all of the details of what is going to 
happen in 2025. We take it in segments, and as those segments 
complete, we start focusing more on the second segment.
    We have had discussions back and forth for quite a while 
with the IG over this approach. We follow the OMB approach with 
respect to that.
    But it is important that we keep it funded at the 
appropriate level.
    Senator Booker. So, the differential in funding is a 
concern of yours?
    Mr. Whitaker. All of these programs--the individual 
components are six to eight year programs, and you have to make 
investment decisions going forward. If you do not have funding 
predictability, it is very hard to do that. We do not want less 
money and we do not want more money. We want the amount of 
money that was built into the program so we can execute.
    Senator Booker. So, in the final seconds I have two things. 
One is the clarity of funding requests seems to be what Mr. 
Hampton is saying in terms of a plan to understand, because 
again, I feel like a little bit, pun intended, that I am flying 
blind in terms of understanding what the future needs are.
    Is this differential in funding really something I should 
concern myself with or not, and the conflicting testimony I am 
hearing, at least reading into it, has me a little concerned, 
and I know my team, we want to dig a little deeper into that so 
we can properly advocate whether it is resources or whether it 
is some of the technical issues. I want to make sure that we 
are applying the proper energy in the proper place.
    And then I just want to say one more time, the most 
congested airport in the United States of America, the most 
flights going in and out of the Kennedy/LaGuardia/Newark 
Airports, the most pollution being spewed into our air, what 
these small parts are making.
    This is a serious crisis in my opinion in terms of the 
number of challenges we are having with safety in our area, and 
the urgency to get this new technology implemented as quickly 
as possible.
    So, for you to say to me a twenty-year plan, that is all 
nice, but I am really focused on how quickly can we create an 
environment of safety in the Nation's most busiest air traffic 
area, where we are facing, I think, straining the capacity of a 
limited number of air traffic controllers relying on technology 
frankly that has been around for many decades, perhaps even 
before I was born.
    Mr. Whitaker. Thank you.
    Senator Booker. Thank you.
    Senator Cantwell. Senator Begich?

                STATEMENT OF HON. MARK BEGICH, 
                    U.S. SENATOR FROM ALASKA

    Senator Begich. Thank you very much. Madam Chair, thank you 
for hosting this hearing. I want to follow up, Mr. Whitaker, on 
what Senator Booker just talked about, and maybe Mr. Hampton, I 
think your point was in the plan that the FAA does, you have to 
make sure you are doing the best cost/benefit analysis, in 
other words, the highest benefit as quickly as possible and 
defining those areas. That is what I kind of heard.
    Does your plan, Mr. Whitaker, address it that way or is it 
kind of the classic what I call ``legislative plan,'' which is, 
you know, shop around everywhere to make everyone happy as best 
as you can because you will get a call from a Senator if you do 
not. How is your plan designed?
    Mr. Whitaker. Well, there are really two parts to this. We 
have a very detailed implementation plan for NextGen that goes 
into detail on how all the programs fit together and how they 
roll out over time. We are executing on that plan.
    In addition to that, we do have the ability to deliver 
benefits, and the NextGen Advisory Committee is designed to 
allow us to give industry an opportunity to reach consensus and 
tell us what is important for implementation.
    I think it is one of the most useful tools that we have, 
and we have had----
    Senator Begich. That is based on, you know, risk, safety, 
some sort of levels of priority that you go after first?
    Mr. Whitaker. When we are dealing with the NextGen Advisory 
Committee, it is really commercial need and where the benefits 
are going to come from. The safety and risk factors are cooked 
into the underlying plan that we have.
    We take that very valuable feedback, and that is why we 
have developed these four areas that we are going to be focused 
on over the next one to 3 years to deliver those benefits.
    Senator Begich. As you know, with Alaska, NextGen, ADS-B, 
all this was pioneered in many ways in Alaska because of the 
unique flying conditions that we have there.
    Mr. Whitaker. Yes, sir.
    Senator Begich. Let me ask you specifically about ADS-B 
technology. In regards to Alaska, I know whenever we talk to 
the FAA, the FAA always says, you know, we have covered Alaska, 
and that is true, 13,000 feet and up, but because of our 
general aviation capacity, which is 16 times more pilots 
licensed in Alaska than in any other place in the country, the 
3,000 to 5,000 really does not get covered as aggressively as 
it could be.
    We have areas like Prince William Sound, which is a huge 
area, as well as up in the Arctic with regards to the North 
Slope, which has a lot of activity, especially now with OCS 
development, a lot of activity with plane activity.
    What is the plan to install more potential ground stations 
to improve ADS-B for general aviation in Alaska? I get the 
commercial. Generally, I fly on a lot of small planes that you 
might not consider commercial, but in Alaska, we consider them 
commercial.
    Mr. Whitaker. Yes.
    Senator Begich. Because that is how we get around.
    Mr. Whitaker. Yes.
    Senator Begich. So, what is the plan to increase that 
capacity, especially in some very high volume areas like I have 
just described?
    Mr. Whitaker. So, the baseline program for Alaska was 33 
ADS-B ground stations, and that part has been completed, but we 
do recognize the terrain in Alaska presents unique challenges, 
so there are supplemental programs moving forward.
    We already have one program underway to add eight more ADS-
B ground stations on the North Slope and in other regions. 
There is work underway in that regard.
    Senator Begich. Are you considering satellite coverage? 
Also, as you know, in Alaska, that is one other component we 
utilize for all our communications. We have a combination. Is 
that part of the equation?
    Mr. Whitaker. Well, the ADS-B takes us to that satellite 
coverage, so that will ultimately be the primary surveillance 
mechanism with the radar as a back-up.
    Senator Begich. OK; fantastic. Let me ask you before I ask 
a couple of others, I have one specific question. This is very 
specific, very parochial, not that anything I do is parochial, 
it is all about Alaska.
    I was just in Alaska, Nome, Alaska, which is not the 
easiest place to fly into, short runway, high winds. As a 
matter of fact, I flew in with the Coast Guard. Even they were 
wondering if we could make it in. One of the issues they have 
is--I forget the technical name of the piece of equipment--it 
is to measure the wind speed on the tail end of the runway, 
which is like near the yaw, they don't have a piece of 
equipment.
    So, obviously, when you are landing on that airport, it is 
a short runway, and your end of that runway is a mountain, and 
there are high winds, they would like to measure that wind, and 
they have been struggling with the FAA for years--years--to get 
this one piece of equipment that could literally protect and 
ensure that life safety is there.
    In Alaska, we do not have the luxury of long runways 
sometimes. We do not have the luxury of calm conditions. Alaska 
is a very windy place. As you know, in Alaska, it has very 
large industrial areas where a lot of the stuff coming from the 
Pacific Rim comes through that area, and that port and that 
airport is busy.
    So, can you just put that on your shopping list? We will 
send you something on this. I know it is not you directly, but 
you are here from FAA, you get the tag.
    Mr. Whitaker. I will. I will follow up and take a look at 
that, Senator.
    Senator Begich. Very good. If I could just ask one quick 
last question and then I will stop, if that is OK, Madam Chair, 
and I apologize. I just want to ask one very quick one and I 
will ask this to Mr. Rinaldi.
    I know NAC has been working on the issue of the En Route 
Automatic Modernization, so forth and so on. I know both FAA 
and NATCA are pretty pleased about the 20 locations.
    The Alaska Air Traffic Control Center was dropped off that 
list. At one time, they were on it, but we did not have 
broadband. Now we have broadband.
    Can you just give me your quick thoughts on that, what that 
means, not being on that list and being one of those 18 to 20 
sites? Then I will stop there.
    Mr. Rinaldi. I think you are exactly right. Originally, 
they were on the list and nobody wanted to actually test new 
programs up in Alaska because like you said, it is the main 
mode of transportation to many of the remote areas up there.
    The En Route Center in Alaska should be on the ERAM 
waterfall. It was not on the funding list and it is certainly 
not on the list now as we roll out to our last six facilities, 
but we would like to see all our en route environments on one 
platform. It just makes sense.
    Also, we could tie in the majority of equipment we are 
using in the Lower 48 that would also help in Alaska. So, it 
would just make sense that as we have the team in place and as 
we finish up on the East Coast and ERAM now to move to Alaska 
and complete that, because, you know, every one of our en route 
environments should have the same platform.
    Senator Begich. I will end there and maybe I will ask FAA 
to respond at a later time. I had a question for Alaska 
Airlines, I will submit it for the record.
    Thank you very much.
    Senator Cantwell. Senator Nelson?

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Madam Chairman, realistically, what year 
are we going to have NextGen ready to go, so that is how we are 
operating our flights? Mr. Whitaker?
    Mr. Whitaker. NextGen is a whole series of upgrades, so 
there is not a particular moment in time when there will be an 
announcement that we have flipped a switch and turned it on.
    But I think the key components of NextGen really involve, 
in addition to the foundational programs that we have talked 
about, data communication into the cockpit so that 
communications between controllers and pilots can happen that 
way, and communications can come into the cockpit----
    Senator Nelson. Right.
    Mr. Whitaker. You can push a button and it can go into the 
flight management system.
    Senator Nelson. Right.
    Mr. Whitaker. We achieve what we call four dimensional 
metering, so when we have an aircraft pushed back from the 
gate, we know what time it is going to take off and what time 
it is going to land, and what the altitudes will be.
    Senator Nelson. Right.
    Mr. Whitaker. As I was mentioning, NextGen was designed as 
a twenty-year endeavor, and I think if we can stay funded and 
on track, that is where we will end up at the end of 20 years.
    Senator Nelson. Well, are you saying 20 years from now? It 
was a twenty-year endeavor, but it started about ten years ago. 
So, are we 10 years down the road?
    Mr. Whitaker. So, if you look at the funding profile, the 
first full year of funding was 2009. Our target is to bring 
those capabilities on by 2025. We still have--we have an 
important step ahead of us, which is to define the equipage 
requirements for aircraft, and when that will be mandated, I 
think that will be probably the defining moment of when it all 
comes together.
    Senator Nelson. Well, that is an awful lot of fuel that we 
are going to use in the meantime on routes that are not direct, 
the added safety of the next generation, situational awareness, 
and so forth.
    Realistically, it is 2025?
    Mr. Whitaker. I think that is a realistic target; yes.
    Senator Nelson. So, the first funding was in 2009. We have 
been talking about this at least for a decade.
    Mr. Whitaker. We have, and what happened is in 2003-2004, 
work began to develop the concept of operations for NextGen, 
and that work continued through 2007. You had some level of 
funding from 2007-2008, but in the $100 million range, if you 
will.
    But as a twenty-year $20 billion program, you are looking 
at a run rate of a billion dollars a year, and that level of 
funding we have never actually touched upon, but we have come 
close beginning in 2009 and every year since then.
    Senator Nelson. Mr. Whitaker, tell us about the progress 
that you can make with the extra funding that the 
administration has requested, and as you share with us, tell us 
so we can get on the record about the sequester, what are the 
sequester cuts going to do to NextGen's progress?
    Mr. Whitaker. I think that one of the keys to successfully 
completing NextGen is to have predictability in the funding 
stream. I think that is first and foremost what we need.
    The many programs that make up NextGen are multi-year 
programs that require multi-year investment planning. So, more 
than picking a particular level, what we really need to know is 
what those levels will be.
    I think a billion dollars a year is roughly what we have 
planned for in implementing NextGen, and that gives us the 
predictability that we need.
    Sequestration and the Government shutdown put significant 
strain on those programs. We had to pull down many activities 
that then took months to reinstate, and that type of funding 
uncertainty is a significant risk to execution.
    Senator Nelson. So, from the perspective of the air traffic 
controllers, Mr. Rinaldi, how do you think the sequester has 
impacted air traffic safety?
    Mr. Rinaldi. Thank you, Senator Nelson. I believe that the 
sequester cuts of last year, we have never seen that before 
where they actually sent controllers home to meet the mandated 
cuts, and everybody within the FAA, to meet the mandated cuts.
    It has impacted many lines of business. The fact that they 
had to close the FAA Academy and stop hiring new controllers on 
March 1, and the plan was to open on October 1, and because the 
full government shutdown, they were not able to open it and get 
it up and running until January 1. We were a full year behind 
of hiring new controllers, and we are seeing controllers 
retiring, you know, 25 years from when they are hired.
    The concern with us with sequester is if it was going to 
come back, the staffing levels in our facilities, they are at a 
record low, we need to get replenishment. We need to continue 
to train and get new qualified controllers on board.
    Senator Nelson. Thank you. Now, we are getting ready to do 
the FAA reauthorization next year. Mr. Hampton, beyond NextGen, 
what are priorities that you would like to see as we get ready 
for the reauthorization?
    Mr. Hampton. Thank you for the question. I think what Mr. 
Rinaldi said going forward is having what is the right number 
of controllers at the facilities. We have work underway at the 
critical facilities, having them properly staffed.
    In the past, they had large numbers of trainees, so 
adequately ensuring controller workforce. Another issue is 
having an adequate inspector model to make sure that we know we 
have the right number of inspectors. FAA has roughly 4,000 
inspectors, and the key is how many we need and where do we 
place them. That is from the safety side.
    I also think going forward you are going to have to address 
the issues of UAS in the next bill and how quickly they can be 
integrated.
    Those are some of the thoughts for going forward in the 
next reauthorization.
    Senator Nelson. Mr. Beck, do you agree?
    Mr. Beck. Yes, sir; I do.
    Senator Nelson. Do you want to add anything?
    Mr. Beck. No, just as the Co-Chair of the PBN NextGen 
Implementation Working Group, I do want to echo some of the 
comments that Mr. Whitaker and Mr. Rinaldi and also Mr. Hampton 
made.
    I see us making good, good progress with this NAC group, 
and I think we are going in the right direction, and we will be 
finishing up our report that will go to Congress in October.
    We are going to have our milestones set, and we will mark 
our progress over the next one to 3 years of things we will be 
able to accomplish.
    I just wanted to add that for the record.
    Senator Nelson. Thank you, Madam Chairman.
    Senator Cantwell. Thank you, Senator Nelson. We appreciate 
you being here and the questions.
    I wanted to ask a question about savings from a fuel 
perspective, whether the En Route Automation system--obviously, 
more direct routes, and modifications to that; right? We have 
routes today. They could be more direct, so that automation 
will save some fuel.
    Then we have the Greener Skies, which is really more--I do 
not know what you call that, terminal based, you know, 
navigation.
    Which of those saves the most in fuel? Where are we going 
to get our most savings, from the terminal focus or the en 
route focus?
    Mr. Whitaker. I think I may want to defer to Gary on that. 
We are doing a lot of work now in the NAC on trying to 
calculate fuel burn. It is one of the metrics that was asked 
for in the 2012 reauthorization, but that data was not 
available and has some proprietary issues associated with it.
    So, we have set up a structure to put in place ways to 
measure that fuel burn, but I think the most notable changes 
are coming in the approach, the Optimized Profile Descent and 
some of the more efficient routings coming into the terminal.
    Senator Cantwell. Well, the reason why I asked that 
question is because, listen, I believe that people are doing 
good work here and people are trying to implement a very 
complex system, but I think you heard from my colleague from 
Florida when you said 20 years to implement, no one wants to 
hear that it takes 20 years to implement this. They want us to 
do the things we can bootstrap now and get implemented, 
obviously, in the most safe and secure manner, and build the 
system that way.
    Technology drives best in flat organizations, not 
hierarchical, so the more hierarchical we come with this, the 
longer it is going to take us to implement. The flatter we can 
do, the better.
    So, my point to Mr. Hampton about measurement, if the most 
savings that we are going to get is in the terminal based 
system, then helping to get those cities on line faster, what 
are the ways in which we can get every city in America thinking 
about, as Mr. Hampton and Mr. Rinaldi said, getting the 
procedural books in place.
    It does not mean they are going to change over without your 
OK, but it gets everybody in America focused on this now and 
focused on what this will bring to them, and gets them ready so 
when you can implement.
    You are learning great things from the Metroplexes in 
Seattle and Texas. You are learning a lot. You are going to 
flatten a lot of issues that are going to come up in other 
areas.
    But again, instead of having this more elongated time 
period while you are doing the En Route Automation system, you 
know, you are spending your money and time there, and yet here 
is where you can empower a lot of jurisdictions across the 
United States of America to get going now, and getting ready 
for where the most fuel savings are, and again, more efficient 
landing and saving passengers time and everything, not that we 
do not have to have the big system.
    I do not know who wants to comment on that, Mr. Beck or Mr. 
Rinaldi.
    Mr. Beck. I certainly agree that the biggest bang for our 
buck as an operator is from cruise altitude to the end of the 
runway. I mean ideally, if we can make an arrival, an approach, 
and not touch those power levers once we bring it back to idle 
until we are on short final, that is where we are going to get 
the most bang for our bucks from fuel savings, emission, and 
noise, too.
    I would agree with you, Chairwoman.
    Senator Cantwell. Mr. Rinaldi, how could we empower cities 
across America to start--even on an empowerment level--to start 
looking at this and getting ready for this implementation so we 
do not wait another ten years before we get major cities on 
this program?
    Mr. Rinaldi. It is a great question. I think we have to 
actually focus on--Gary, Mr. Beck, is exactly correct. The 
optimal descent approach is where we are saving the fuel, 
saving the noise, and improving the carbon footprint on the 
environment.
    So, we have to start connecting the highways in the sky in 
the en route environment so we are not--when they are at flight 
level 350, they are what we call ``clean,'' and they are green. 
They are flying with--they are burning fuel but there is not 
the stop and go when they get into the terminal environment.
    So, if we can start connecting Houston and North Texas and 
start moving up throughout the United States and connect the 
highways in the sky so that when they get into the terminal 
environment, they just have the optimal descent approach, that 
is where we are going to see the most benefit of NextGen, of 
PBN, Performance Based Navigation.
    So, how do we do that quickly? We have to set more teams in 
place and tell them to go forth and do this great work and 
start connecting the highways in the sky.
    The way to do that--we do have staffing issues within the 
FAA, but we have to start identifying some teams and start 
putting them in there so that we are building the system as we 
are going along, so when you leave Texas, you are not broken 
and all of a sudden we have to slow you down until you get to 
another major city.
    Senator Cantwell. But is there not something right now that 
Houston could share with Miami or Chicago or Newark, that they 
can be thinking about and getting ready on their own, as 
opposed to waiting for somebody at the FAA to knock on their 
door?
    Mr. Rinaldi. Absolutely; yes.
    Senator Cantwell. Well, I think that is what we need to 
look at. I do not know if you have any more questions, Senator 
Nelson. Yes, go ahead.
    Senator Nelson. Tell me about the technology, are we such 
that in the NextGen, we are going to do everything from 
satellites and not have radar, or are we going to have radar as 
back-up, in which case you have duplicate of costs? What is the 
story?
    Mr. Whitaker. The idea is to transition to a satellite-
based system, but given the nature of what we do, you need 
redundancies in the system, so there will be a redundancy radar 
system. It will be a streamlined radar system from what we 
currently operate, but key to everything in aviation is 
redundancy, and there will be a redundant system in place.
    Senator Nelson. So, that being the case, would the 
redundancy be robust enough that if suddenly there were a major 
solar explosion and this electromagnetic pulse is suddenly 
coming to earth and it starts to fry these satellites, that 
redundancy is robust enough to still control the traffic?
    Mr. Whitaker. Well, you may have exceeded my level of 
science knowledge, but if we have to shut down the satellite 
based system, it will be able to operate on the radar based 
system.
    Senator Nelson. It will?
    Mr. Whitaker. Yes.
    Senator Nelson. That is the question.
    Mr. Whitaker. Yes.
    Senator Nelson. So, how much do you lessen then the 
existing radars so that you still have the capability to 
operate?
    Mr. Whitaker. So, the radar system now actually has 
redundancies to back it up, so we will be able to retire some 
of the other redundancies, if you will, but we will have a 
comprehensive plan that we will go through a typical safety 
analysis to make sure it is robust enough to handle all of the 
traffic, but will be more cost efficient than the one that we 
are running at this time.
    Senator Nelson. By the way, that is not the only traffic we 
are looking at. In our testing, for example, of our missiles, 
our defense missiles, the civilian space program, on our 
launches, the more that we can rely on satellites to help do 
the tracking, the greater efficiencies we can get, but we have 
the same kind of question, what is the redundancy.
    Thank you, Madam Chairman.
    Senator Cantwell. Thank you, Senator Nelson. Again, I want 
to thank the witnesses for their testimony and for their focus 
on this.
    I think you should take away from today's hearing that 
while some progress has been made, we very much look forward to 
this July 1 report, which is mid-term, I guess, and we are 
going to get the final in October.
    We thank Mr. Hampton again for narrowing the focus, as he 
mentioned. I think that is what our larger questions are. 
Instead of having a broad approach, we want to see more focused 
things that are leveraged, if you will, no pun intended, but to 
change the approach a little bit here, and to use the private 
sector to focus the attention on those things that are going to 
be most leveraged.
    Again, if the most fuel efficiency is out of this approach 
issue, then what can we do to accelerate that during this time 
period while we are also getting the larger system replaced 
that is a cross navigation system.
    So, I think for all of us, we are stewards of the 
taxpayers' dollars, so we want to see the implementation of 
this as cost-effectively as possible.
    We also want to see the investment made by the private 
sector, so all of that is a hand-in-hand process, and we 
certainly do not want to see government shutdowns and things of 
that nature inhibit us in this area. We want you to have clear 
ideas about what you can count on, but we also, as I said, want 
it to be the more leveraged things that we can do right now.
    So, hopefully, you will take that feedback from us, as you 
report back to us on this in the future, and will take that 
into consideration.
    The good news out of Houston, out of Seattle, does provide 
some very, very promising results for the long-run, so we are 
certainly happy about that, and certainly, I am sure consumers 
will be happier when they have more on-time arrivals.
    Anyway, we will come back with a future hearing on this 
implementation. Members will have time now to submit questions 
to you all. We will have the record open for two weeks so 
members can ask individual questions.
    Senator Cantwell. I am going to submit one on the UAV 
system. I do not have time right now to go into that. We will 
submit some questions for the record as well.
    But again, thank you very much for all that you are doing 
to help us get this new system implemented.
    We are adjourned.
    [Whereupon, at 11:45 a.m., the hearing was adjourned.]
                            A P P E N D I X

Response to Written Questions Submitted by Hon. John D. Rockefeller IV 
                      to Hon. Michael G. Whitaker
    According to a June, 2014 series by the Washington Post, both 
civilian drones and the GPS signals used to navigate are vulnerable to 
hacking or jamming. These GPS signals important part of NextGen 
navigation systems for manned aircraft as well, though the danger may 
be more acute with drones as there is no pilot on-board to immediately 
identify directional changes.
    Dealing with this problem requires that we not only design secure 
systems up-front, but that we are able to immediately detect and 
respond to intrusions into our systems. I know you are working to build 
a secure system, but I also want to make sure we have the ability to 
detect attacks once all systems are operational.

    Question 1. What are you doing to ensure that when an attack occurs 
we will be able to respond quickly and effectively?
    Answer. The FAA follows a rigorous safety and risk management 
process to ensure that new systems and services introduced into the 
National Airspace System (NAS) are thoroughly evaluated and appropriate 
risk mitigations implemented to maintain and enhance the current level 
of safety.
    While there have been claims that the implementation of ADS-B in 
the NAS provides greater security or safety risks to air navigation 
systems in the United States, considering surveillance backup strategy, 
independent position validation, ADS-B infrastructure implementation, 
Air Traffic Control (ATC) procedures, and vulnerability studies for 
ADS-B, the FAA finds no basis to support that claim.
    Based on vulnerability assessments conducted for the FAA's 
Automatic Dependent Surveillance-Broadcasting (ADS-B) services, the 
Agency determined that the risk to the National Airspace System (NAS) 
due to spoofing or intentional jamming would be no greater than the 
risk with the use of radar systems (Mode A, C, and S) employed to 
separate aircraft today.
    The FAA meets regularly with the Department of Defense (DOD) and 
Department of Homeland Security (DHS) representatives regarding the use 
of ADS-B information and national security issues to ensure that all 
NAS vulnerabilities are appropriately addressed.

    Question 2. GPS is clearly a critical capability for NextGen. What 
are you doing to ensure aviation safety in the event that GPS is jammed 
or suffers a malfunction?
    Answer. Multiple layers of redundancy and alternative systems 
ensure the safe operation of the NAS if there is a disruption to a part 
of the airspace system, such as the Global Positioning System (GPS).
    The NAS was designed to handle widespread, naturally-occurring, GPS 
disruptions from events such as solar storms, but the system has not 
experienced such disruptions on any noticeable scale. Conversely, 
manmade disruptions to GPS are likely to be very localized by their 
very nature, and such interference has had minimal effect. The FAA has 
traced the very few pilot reports of GPS issues to sources on the 
ground such as industrial processes. These events have not affected 
safety and the pilots reporting them automatically have utilized the 
available alternatives.
    GPS technology offers many advantages, but the FAA is not solely 
reliant on any single component of the NAS for safe operation. The 
future design and operation of the NAS will continue to utilize 
multiple layers of redundancy.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                        Hon. Michael G. Whitaker
    Question 1. A recent Washington Post investigative report 
highlighted a disturbing number of incidents in which pilots reported 
dangerously close encounters with drones in the vicinity of airports, 
and incidents involving drones appear to be on the rise. What steps is 
the FAA taking now to prevent more of these incidents from occurring 
around our airports?
    Answer. The FAA recently adopted a change to its Flight Standards 
Information Management System to assist flight safety inspectors in 
educating operators of UAS, including Model Aircraft, to comply with 
applicable Federal Aviation Regulations, including operations around 
airports. The FAA also recently published the Interpretation for the 
Special Rule for Model Aircraft on June 23, 2014, which, among other 
things, provides guidance to Model Aircraft operators regarding 
coordination with Air Traffic Control when operating near airports. The 
FAA is working with its inspectors to ensure they give standard 
information to the public on how to satisfy the requirements contained 
in the Federal Aviation Regulations and avoid endangering the safety of 
the Nation's airspace.
    In addition, the FAA will be developing a public outreach campaign 
that includes further development of the relationship with industry, 
including the Academy of Model Aeronautics, a nationwide community-
based model aircraft organization with a successful record of safe 
model aircraft operations.
    The FAA Modernization and Reform Act of 2012 was clear that the FAA 
may also take enforcement action against UAS operators, including model 
aircraft operators, who operate their aircraft in a manner that 
endangers the safety of the national airspace system. In the 
interpretation of the provisions of the 2012 Act applicable to model 
aircraft, the FAA explains that this enforcement authority is designed 
to protect users of the airspace as well as people and property on the 
ground.

    Question 2. At the same time as the FAA is developing rules on the 
expanded use of unmanned aircraft, you are also working toward 
implementing the NextGen Air Traffic System. What steps are being taken 
in the development of NextGen to account for the presence of unmanned 
aircraft in the National Airspace System?
    Answer. NextGen has multiple ongoing initiatives to account for the 
presence of unmanned aircraft in the National Airspace System.
    NextGen, in coordination with other FAA lines of business, led the 
development of an end-state concept of operations for unmanned aircraft 
system integration into the NAS. This concept of operations is maturing 
to include the design of detailed operational scenarios which will 
inform safe and efficient integration of unmanned aircraft systems.
    NextGen is the steward for the National Airspace System Enterprise 
Architecture which establishes the foundation from which evolution of 
the NAS can be explicitly understood and modeled. NextGen, in 
collaboration with the FAA's Unmanned Aircraft System Integration 
Office, has initiated an unmanned aircraft system National Airspace 
System Enterprise Architecture effort to deliver the first series of 
systems engineering diagrams that reflect the current, mid-term and 
future time frames of unmanned aircraft system National Airspace System 
integration. The initial diagrams capture the scenarios that are 
depicted in the FAA's unmanned aircraft system concept of operations, 
both operationally and functionally.
    NextGen technologies are making it possible to safely introduce 
unmanned aircraft into the airspace system. Here are a few examples of 
the connection between NextGen and unmanned aircraft systems:

  <bullet> Airborne Collision Avoidance System for UAS: In order for 
        many unmanned aircraft to operate safely in shared airspace, we 
        must develop technologies that enable them to ``detect and 
        avoid'' other airborne vehicles. The agency is researching and 
        developing a collision avoidance system specifically designed 
        for unmanned aircraft. It's a technology called ACAS-Xu.

  <bullet> ADS-B: This technology helps achieve collision avoidance 
        through more precise surveillance--and separation--of both 
        manned and unmanned aircraft in the same vicinity.

  <bullet> National Airspace System Voice System: Another NextGen 
        technology that will support unmanned aircraft is NAS Voice 
        System. This system modernizes the voice communication 
        capabilities that we use for air traffic services. It will 
        enable controllers to communicate with the ground pilot of an 
        unmanned vehicle.

    Question 3. What strategies can the FAA employ to expand the 
Metroplex initiative, or PBN procedure development generally, to drive 
near-term benefits at more airports nationwide? What resources are 
needed to achieve this expansion?
    Answer. The FAA has moved from a ``quantity based'' strategy to a 
``value-based'' strategy for implementing new Performance Based 
Navigation (PBN) procedures. Currently, there are over 7,000 PBN 
procedures in the NAS. The agency goal is to not merely create more 
procedures but rather have procedures that add value for the customers.
    This is a strategy that is endorsed by both industry, through the 
RTCA NextGen Advisory Committee (NAC), and labor. Drawing from the NAC 
recommendations on ways to improve PBN utilization, the FAA has 
implemented the Performance-Based Review, Revise or Remove (PRRRT) 
process to evaluate existing procedures. If utilization and value do 
not meet a cost-benefit ratio, the procedure is considered for revision 
to improve the value. If that not possible, the procedure is removed 
from the national inventory. This process is aimed at reducing the 
number of procedures controllers must maintain currency on, the number 
of procedures industry stakeholders must load/maintain in their 
navigation systems, and the number of procedures the FAA must maintain 
annually.
    Additionally, the FAA is drawing on recommendations from the NAC on 
how and where to deploy and/or expand the Metroplex initiatives. 
Current and future locations are evaluated against an agreed-up set of 
criteria that define areas where the greatest need exists and benefits 
can be derived. Evaluating and tracking benefits of these initiatives 
are currently part of the FAA-NAC work associated with the NextGen 
Implementation Working Group (NIWG). Recommendations are expected out 
of these efforts later this year.

    Question 4. In his testimony, Captain Beck of Alaska Airlines 
indicated that the FAA has not granted waivers for curved, GPS 
approaches to be considered ``established'' and eligible for the 
reduced separation between aircraft that creates efficiencies in the 
system. How long does it take to determine if a curved RNP approach can 
be ``established'' as on other, straight line approaches? Will you work 
to resolve this issue with Alaska Airlines?
    Answer. The FAA has and is currently working with Alaska Airlines, 
as well as a consortium of additional stakeholders including Horizon 
Air, Southwest Airlines, Delta Airlines, the SEA Airport Authority, the 
Boeing Company, local ATC, NATCA, and other industry players regarding 
the approval of Established on RNP (EoR) concept with specially 
designed instrument approach procedures into Seattle-Tacoma 
International Airport.
    The EoR concept is based on the utilization of aircraft navigation 
systems to achieve a specific level of positional accuracy and systems 
integrity to support a next generation type of reduced separation in 
the terminal airspace. These EoR approaches leverage the required 
navigational performance (RNP) found in modern aircraft avionics as a 
basis for relieving the standard separation standards currently 
mandated by FAA guidance between simultaneous approaches.
    Initial RNP EoR Approach designs were created in a highly 
collaborative environment of stakeholders through the use of various 
subject matter experts and standard Performance Based Navigation (PBN) 
procedure development processes. An Environmental Assessment of the 
applicable geographic communities was conducted with flight trials and 
other analysis for the subject RNP EoR approaches and the findings were 
released to the public. The Boeing Company, in conjunction with FAA and 
Industry stakeholders, drafted a concept of operations document and 
performed a detailed safety analysis of the proposed EoR operation. The 
findings of both reports were utilized to validate the initial SEA EoR 
approach designs, and as a basis of the Safety Risk Management panel 
and subsequent documents that lead to the initial draft of the EoR 
operational Waiver request.
    The FAA's Flight Standards division also conducted Human in The 
Loop Simulations (HITLS) of the EoR approach into SEA and recommended 
further considerations for maintaining the desired level of safety. 
These recommendations are currently being amended into an updated 
version of the SEA EoR waiver request to be vetted by stakeholders for 
concurrence and approval.
    In addition, final changes to the initial RNP EoR approach designs 
initiated by industry stakeholders, are scheduled to be published and 
available for use in November of 2014. As the FAA waiver approval 
process proceeds, operator and ATC readiness begins to ramp up with the 
necessary updates to system infrastructure and training required for 
successful implementation and utilization of EoR. The overarching EoR 
plan of execution was created in a highly collaborative environment 
with all stakeholders, including Alaska Airlines. This continued 
collaboration is progressing through regular meetings on a basis of no 
less than every two weeks working towards a goal of an ATC waiver 
approval and begin operational validation in the spring of 2015.

    Question 5. Performance Based Navigation procedures enable planes 
to fly more closely together and on more direct routes, which lead to 
fewer delays, shorter flight times, and reduced fuel consumption. 
Despite these potential benefits, airlines and industry stakeholders in 
the past have raised concerns about the use of Performance Based 
Navigation (PBN) procedures being developed. What steps is FAA taking 
to increase usage of existing procedures with respect to updating 
policies and procedures, and providing training, tools and incentives 
for controllers to use these procedures whenever possible for properly 
equipped aircraft?
    Answer. While airlines and industry stakeholders may express 
concerns about the use of PBN procedures, they are actually used 
thousands of times each day. For example, in Atlanta the daily PBN 
procedure utilization rate during December 2013 averaged more than 
1,500 operations, which accounts for more than 68 percent of all IFR 
operations. Another example is Chicago. The utilization rate at Chicago 
Midway fluctuates based on runway use, but in June 2013, the RNP 
approach to runway 13C was used by 73 percent of the candidate 
aircraft. This procedure was designed specifically to de-conflict 
traffic from the adjacent Chicago O'Hare airport during certain weather 
conditions and runway configurations. In Seattle, of the seven STARs at 
Seattle-Tacoma International Airport only two are PBN procedures. 
However, more than 42 percent of all aircraft arriving in Seattle are 
already using these two new procedures. Usage of non-PBN procedures has 
been declining while use of PBN procedures is slowly increasing as 
pilots and controllers become for comfortable.
    The FAA has been working diligently to provide the guidance and 
tools controllers will need to increase utilization of PBN in the NAS. 
The FAA has recently implemented the PBN Implementation Process Order 
which provides the policy and guidance necessary for proper management, 
development, and maintenance of PBN procedures in the NAS. In the 
months leading up to the April 2014 implementation of the Climb/Descend 
Via phraseology, the FAA provided training to establish or reinforce 
more consistent use of efficient flight profiles. The FAA has been 
working to not only provide more training, but to also improve the 
standardized utilization of decision support tools that should 
facilitate increased utilization of PBN procedures in the NAS.
    Currently, one of the largest barriers to the consistent 
utilization of PBN procedures is the mixed equipage of aircraft using 
the National Airspace System (NAS). Mixed equipage refers to the 
capabilities of individual aircraft in the NAS--meaning certain 
aircraft are not equipped to leverage the PBN infrastructure that is in 
place, while others are equipped for full utilization. To address the 
need to manage the myriad aircraft configurations operating in the NAS, 
the FAA is revamping adaptation and training for the existing Time-
based Flow Management (TBFM) system and working to implement the 
Terminal Spacing and Sequencing (TSS) tool. By creating a national 
training course to standardize the utilization of TBFM, increase 
utilization of TBFM, and implement TSS; the FAA expects to enable 
higher utilization of RNP procedures at high volume airports.

    Question 6. In the 1990s the FAA's Advanced Automation System 
procurement failed, at a cost of over $5 billion, with relatively 
little to show for that investment. As we approach that $5.9 billion 
investment in NextGen, how are you avoiding the problems that derailed 
that program in the 90s?
    Answer. Lessons learned from major program failure led to sweeping 
changes in the FAA's acquisition management process. Most recently, in 
2011, the FAA established the Program Management Organization (PMO) to 
manage NAS system acquisitions and ensure stronger discipline in 
managing the dependencies among the major programs.
    The PMO structure ensures greater visibility, tighter alignment and 
closer integration of complex, interdependent NextGen initiatives and 
innovative technology. The PMO plays a critical role in the success of 
NextGen by acting as the bridge between strategic requirements and 
tactical program implementation to improve the safety and efficiency of 
the NAS.
    The PMO has instituted bi-weekly reviews of its major acquisitions 
and activities, with a specific focus on risks, issues and 
opportunities related to system interdependencies. These reviews, with 
participation from executives at the director level and above across 
NextGen, Finance, and ATO operations, have proven extremely valuable to 
executive stakeholders charged with overseeing the success of NextGen.
    We have utilized lessons learned from troubled programs (for 
example, En Route Automation Modernization or ERAM) to improve how 
programs are structured and how systems are implemented. These areas 
include program governance; communications improvements; testing 
processes; requirements management; risk management; and maintenance 
transition planning. These lessons learned and process improvements 
will inform a program throughout its lifecycle.
    Lastly, recognizing the importance of obtaining input from users of 
the system early in the pre-implementation phase of programs is 
critical. The scope of controller and maintenance technician 
involvement covers a range of activities including: development of 
operational concepts, human in the loop simulations, and evaluation of 
operational prototypes. This helps to reduce risk prior to full 
deployment of a system, by providing early user involvement as we 
mature operational capabilities and assess operational suitability of 
systems.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Amy Klobuchar to 
                        Hon. Michael G. Whitaker
    Question. For decades the FAA Airports Division has addressed 
residents' concerns about airport compliance with environmental 
regulations using a framework that provides for collaboration and the 
consideration of stakeholder concerns. However, recent experiences at 
the Minneapolis-St. Paul International (MSP) Airport during the 
proposed plan for RNAV implementation suggest there is some 
misalignment between local expectations of the process for new projects 
and the FAA's processes for addressing community concerns.
    Mr. Whitaker, can you talk about the FAA's role when it comes to 
public outreach and the way the FAA involves stakeholders including 
operators and communities? How does the agency intend to address public 
concerns moving forward in a manner considerate of precedent and local 
expectations surrounding the design and environmental review of NextGen 
aircraft procedures? Will you commit to working with the communities 
surrounding airports, such as the Twin Cities metro area?
    Answer. The FAA conducts public outreach and coordination with 
stakeholders for airspace actions, in strict accordance with agency 
directives and procedures. Any airspace actions that are not 
categorically excluded from requiring an Environmental Assessment (EA) 
or Environmental Impact Statement (EIS) per the National Environmental 
Policy Act (NEPA) typically involves conducting public workshops, and 
soliciting public comments on draft EA and EIS documents. Associated 
public outreach activities includes publishing notices in newspapers, 
direct solicitation for comments from impacted stakeholders, and 
presenting briefings to stakeholder organizations.
                                 ______
                                 
   Response to Written Question Submitted by Hon. Maria Cantwell to 
                               Gary Beck
    Question. Low usage of Performance Based Navigation procedures may 
also be related to whether a given procedure provides real benefits to 
airlines. In your experience does the FAA development of new PBN 
procedures properly and proactively identify, develop, and implement 
the most useful new routes?
    Answer. Over the past ten years, the FAA has had a process for 
developing Area Navigation (RNAV) Arrivals that included industry 
involvement. While progress was made at some airports, the procedures 
often failed when it came time for implementation. This has been due to 
a variety of reasons ranging from aircraft technology, pilot and 
controller situational bias, airspace boundary constraints, and length 
of time from initial design to publication.
    Initially, FAA's Required Navigation Performance (RNP) approaches 
were developed and published with a focus on quantity, not quality. 
Many are simply an overlay of an existing conventional approach 
procedure, without providing safety, access, or operational efficiency 
enhancements. RNP approaches must be requested by the pilot; as such, 
crews are reluctant to request them and controllers are reluctant to 
issue them. Therefore, many RNP approaches have been published, but 
very few have been implemented and used.
    With initiatives in the National Airspace System like Metroplex, 
Greener Skies, and Portland, Oregon, PBN implementation, the process 
has become more streamlined and inclusive. We are seeing a 
collaborative effort that includes a broader group of key stakeholders 
including FAA, Labor, Airports, Community, and Industry. Having many 
diverse viewpoints working toward the same goal of improving airspace 
safety and efficiency is proving to be a success. Low usage should be a 
thing of the past especially with regard to Standard Arrivals because 
most of the industry is equipped and trained. RNP usage should increase 
as equipage and training increase.
    There are still challenges in this effort, but Alaska Airlines 
believes the FAA is on the right track. The new PBN Order that was 
published earlier this year, as well as the RTCA PBN Blueprint Task 
Group's efforts, will bring even more clarity to the process and ensure 
that airspace changes have a measurable benefit. Building on a process 
that began July 2013 at the request of the FAA, the Industry and FAA 
have come together to form the NextGen Integration Working Group (NTWG) 
under the NextGen Advisory Committee (NAC). With over one hundred 
representatives from all sectors of aviation, the group has been 
conducting deep dives of four focus areas to identify what it takes to 
deploy meaningful capabilities at specific sites.
    The NTWG most recently met in July 2014 to receive reports on the 
progress being made with the four teams: Performance Based Navigation 
(PBN), Surface and Data Sharing, Closely Spaced Parallel Runways and 
DataComm-enabled Controller-Pilot DataLink Communications (CPDLC) and 
pre-departure clearances. The goal of the NTWG is to provide the NAC 
with an integrated implementation plan and recommendations for tangible 
benefits at the October 8, 2014, NAC meeting.
                                 ______
                                 
    Response to Written Question Submitted by Hon. Amy Klobuchar to 
                               Gary Beck
    Question. For decades the FAA Airports Division has addressed 
residents' concerns about airport compliance with environmental 
regulations using a framework that provides for collaboration and the 
consideration of stakeholder concerns. However, recent experiences at 
the Minneapolis-St. Paul International (MSP) Airport during the 
proposed plan for RNAV implementation suggest there is some 
misalignment between local expectations of the process for new projects 
and the FAA's processes for addressing community concerns.
    Mr. Beck, you dealt with this issue in Seattle. How important is 
community outreach to the success of deploying NextGen in a way that 
works for the community?
    Answer. Community engagement through close partnerships with the 
airport authority is critical to successfully implementing airspace 
changes. The Port of Seattle, operator of Sea-Tac Airport, was a key 
partner in the Greener Skies project. Due to the relationships the Port 
already had with local communities, they were able to start engaging 
local leaders early in the project with the facts about what was 
planned and what we expected the benefits to be.
    The Port shared existing noise abatement corridors and local noise 
concerns with the rest of the project team, ensuring new procedure 
designs remained within the pre-defined corridors. Even when flight 
paths over the ground didn't change, media coverage of Greener Skies 
resulted in a perception from some neighborhoods that there had been a 
change. The Environmental Assessment process was thorough, providing 
detailed information about the project impacts to the public. Being 
transparent with the data was helpful. Community meetings at local 
schools and city halls allowed citizens and local elected officials to 
learn about the project and share their perspective.

                                  <all>

                  This page intentionally left blank.
                  This page intentionally left blank.
                  This page intentionally left blank.






      
</pre></body></html>
